<html>
<title> - ALLEGATIONS OF POLITICAL INTERFERENCE WITH THE WORK OF GOVERNMENT CLIMATE CHANGE SCIENTISTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
   ALLEGATIONS OF POLITICAL INTERFERENCE WITH THE WORK OF GOVERNMENT 
                       CLIMATE CHANGE SCIENTISTS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 30, 2007

                               __________

                            Serial No. 110-1

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
34-913                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 30, 2007.................................     1
Statement of:
    Grifo, Francesca, senior scientist and director of the 
      scientific integrity program, Union of Concerned 
      Scientists; Rick Piltz, former senior associate, U.S. 
      Climate Change Science Program; Drew Shindell, Goddard 
      Institute for Space Studies, National Aerodynamics and 
      Space Administration; Roger Pielke, Jr., professor, 
      environmental studies program, University of Colorado and 
      fellow, Cooperative Institute for Research in the 
      Environmental Sciences.....................................    51
        Grifo, Francesca.........................................    51
        Pielke, Roger, Jr........................................    96
        Piltz, Rick..............................................    71
        Shindell, Drew...........................................    91
Letters, statements, etc., submitted for the record by:
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah, prepared statement of.......................    29
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    26
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    20
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    23
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    12
    Grifo, Francesca, senior scientist and director of the 
      scientific integrity program, Union of Concerned 
      Scientists, prepared statement of..........................    54
    Pielke, Roger, Jr., professor, environmental studies program, 
      University of Colorado and fellow, Cooperative Institute 
      for Research in the Environmental Sciences, prepared 
      statement of...............................................    99
    Piltz, Rick, former senior associate, U.S. Climate Change 
      Science Program, prepared statement of.....................    73
    Sali, Hon. Bill, a Representative in Congress from the State 
      of Idaho, prepared statement of............................    37
    Shindell, Drew, Goddard Institute for Space Studies, National 
      Aerodynamics and Space Administration, prepared statement 
      of.........................................................    93
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     4
    Welch, Hon. Peter, a Representative in Congress from the 
      State of Vermont, letter dated January 30, 2007............   145
    Yarmuth, Hon. John A., a Representative in Congress from the 
      State of Kentucky, prepared statement of...................    46


   ALLEGATIONS OF POLITICAL INTERFERENCE WITH THE WORK OF GOVERNMENT 
                       CLIMATE CHANGE SCIENTISTS

                              ----------                              


                       TUESDAY, JANUARY 30, 2007

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Kucinich, Cummings, Davis 
of Illinois, Tierney, Clay, Watson, Lynch, Higgins, Yarmuth, 
Braley, Norton, McCollum, Cooper, Van Hollen, Hodes, Murphy, 
Sarbanes, Welch, Davis of Virginia, Shays, Platts, Cannon, 
Duncan, Turner, Issa, Foxx, and Sali.
    Also present: Representative Gilchrest.
    Staff present: Phil Schiliro, chief of staff; Phil Barnett, 
staff director/chief counsel; Kristin Amerling, general 
counsel; Greg Dotson and Jeff Baran, counsels; Earley Green, 
chief clerk; Teresa Coufal, deputy clerk; David Marin, minority 
staff director; Larry Halloran, minority deputy staff director; 
Jennifer Safavian, minority chief counsel for oversight and 
investigations; Keith Ausbrook, minority general counsel; Ellen 
Brown, minority legislative director and senior policy counsel; 
Mason Alinger, minority deputy legislative director; A. Brooke 
Bennett, minority counsel; Allyson Blandford, Jay O'Callaghan, 
and Kristina Husar, minority professional staff members; Larry 
Brady, minority senior investigator and policy advisor; Patrick 
Lyden, minority parliamentarian and member services 
coordinator; Brian McNicoll, minority communications director; 
and Benjamin Chance, minority clerk.
    Mr. Waxman. The meeting of the committee will come to 
order.
    I want to welcome everyone to today's meeting. It is the 
first hearing we are having this year, and it focuses on one of 
the most important issues facing our Nation and the world, 
global warming.
    Most of my colleagues know that I bring some strong views 
to the subject. I have been working on global warming for 
almost 20 years and introduced the first comprehensive global 
warming bill in 1992. I believed then that the science on 
global warming was compelling enough to warrant action, and in 
the years since 1992, I believe the science has grown more and 
more compelling.
    But despite my strong views, I would never want scientists 
to manipulate research so that they can tell me what they think 
I want to hear. I don't want politically correct science. I 
want the best science possible, and that is what today's 
hearing is about.
    For several years, there have been allegations that the 
research of respected climate scientists was being distorted 
and suppressed by the Bush administration. Some of these 
reports claim that Phil Cooney, a former lobbyist for the 
American Petroleum Industry, was put in charge of the Council 
on Environmental Quality and imposed his own views on the 
reports scientists had submitted to the White House.
    The last Congress, under the leadership of Tom Davis, this 
committee took the appropriate step and began investigating 
whether the Bush administration was interfering with the 
science of global warming for political reasons. I joined with 
Chairman Davis in requesting routine documents from the White 
House's Council on Environmental Quality. When the White House 
resisted, we narrowed our request. When the White House 
resisted again, we scaled back what had already been a 
reasonable request, and when the White House resisted a third 
time, we again tried to accommodate the President.
    In addition to repeatedly narrowing our request, we 
extended the deadlines we had suggested to the White House. But 
even after all those courtesies, we have received virtually 
nothing from this administration.
    Last evening, we finally received a total of nine non-
public documents. Unfortunately, they add little to our 
inquiry. In some cases, they do not even appear to be records 
we were seeking.
    It is a privilege to chair this committee. The Oversight 
Committee is charged with an essential responsibility, bringing 
accountability to our Government. We take this very seriously. 
As chairman, I intend to be fair to every witness and to invoke 
the committee's broad powers only when absolutely necessary. 
But I also intend to be thorough, to insist on Congress' right 
to receive relevant information and to do everything possible 
to meet the important obligations we have to the American 
people.
    In this instance, the committee isn't trying to obtain 
State secrets or documents that could affect our immediate 
national security. We are simply seeking answers to whether the 
White House's political staff is inappropriately censoring 
impartial Government scientists.
    Last fall, our staffs viewed some of the documents the 
committee is seeking in camera. As a result of this review, we 
know that the White House possesses documents that contain 
evidence of an attempt by senior administration officials to 
mislead the public by injecting doubt into the science of 
global warming and minimizing the potential dangers. I believe 
Congress is entitled to this information and to these 
documents.
    According to the documents we have reviewed, administration 
officials sought to edit an EPA report: First, to add 
``balance'' by emphasizing the ``beneficial effects'' of 
climate change. Second, they tried to delete a discussion of 
the human health and environmental effects of climate change. 
Third, to strike any discussion of atmospheric concentrations 
of carbon because carbon levels are not a ``good indicator of 
climate change,'' and four, to remove the statement that 
``changes observed over the last several decades are likely 
mostly the result of human activities.''
    Some of the most questionable edits were urged by Phillip 
Cooney, the former oil industry lobbyist who was the Chief of 
Staff to the White House Council on Environmental Quality.
    Today, Ranking Member Davis and I are sending a letter to 
the White House about these documents to urge the White House 
to reconsider the confrontational approach it is now taking.
    I am looking forward to hearing the testimony of today's 
witnesses. We are fortunate to have the Union of Concerned 
Scientists here and to have the opportunity to review their new 
report on political interference in the scientific process.
    I also want to welcome Dr. Drew Shindell to the committee. 
Dr. Shindell is a top climate researcher at NASA's Goddard 
Center. He will testify about the difficulties he has faced in 
alerting the public to his important climate research. Dr. 
Shindell is testifying on his own behalf today, and he has 
earned our gratitude for having the courage to step forward.
    I would also like to note that Rick Piltz is testifying 
today for the first time. Mr. Piltz is the Government employee 
who publicly objected when the Council on Environmental Quality 
started overruling the views of climate scientists.
    We are pleased that Roger Pielke is able to join us.
    All of us have a right to our own views about the 
seriousness of global warming, but we don't have a right to our 
own science. This hearing and the committee's ongoing 
investigation into political interference is aimed at ensuring 
the American people receive the best possible science.
    That concludes my statement.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.001
    
    [GRAPHIC] [TIFF OMITTED] T4913.002
    
    [GRAPHIC] [TIFF OMITTED] T4913.003
    
    [GRAPHIC] [TIFF OMITTED] T4913.004
    
    [GRAPHIC] [TIFF OMITTED] T4913.005
    
    Mr. Waxman. I want to recognize Mr. Davis.
    Mr. Davis of Virginia. Well, thank you, Mr. Chairman, and 
my best wishes to you as you bring your first oversight hearing 
to order.
    I should note the irony of having a global warming hearing 
today on the coldest day of the year. In fact, one of my 
colleagues remarked it is so cold today that Congressmen have 
their hands in their own pockets just to keep warm. [Laughter.]
    Seriously, though, I am pleased that in our first hearing, 
we are continuing the committee's work on climate change. Last 
year, we directed the committee to address this weighty and 
politically charged issues in a non-partisan way.
    I am proud that we are able to strip away partisan 
differences and tackle an issue which most other committees had 
steered well clear of. Our approach earned accolades from 
groups like the Pew Center on Global Climate Change which 
called our hearings, ``some of the most balanced and 
informative climate change hearings in memory,'' and newspapers 
like the Washington Post which described our work as 
``responsible.''
    The committee's reputation is based on its commitment to 
fair and responsible oversight, and I look forward to 
continuing that tradition with you.
    Mr. Chairman, I am no climate change denier. In fact, I 
believe it is one of the most urgent matters we face. As I have 
said before, there aren't many people left these days who would 
argue global warming isn't happening per se. There is 
widespread agreement that global mean temperatures increased 
over the past century and that carbon dioxide in the atmosphere 
has contributed to this warming.
    Furthermore, like you, I think it is important to determine 
whether the administration or anyone else has attempted to 
quash scientific findings. That is why together we have 
requested documents from the Council on Environmental Quality 
and why together we remain disappointed in the lackluster 
production of those documents.
    But, Mr. Chairman, I am concerned this morning that the 
pendulum has swung too far in the opposite direction, that is, 
I am concerned that we have gone from legitimate conversations 
about politicizing science to a potentially dangerous dynamic 
that not only condones but heralds the suppression of 
scientific dissent. For some it seems freedom of speech implies 
only to those that agree with you. Let me explain.
    We are seeing a dangerous trend toward inflammatory and 
counter-productive hyperbole. When a top climatologist at the 
Weather Channel calls for stripping meteorologists who express 
any skepticism about man's contributions to climate change of 
their certifications, we have probably gone too far. When so-
called eco experts liken skeptics to Holocaust deniers, we have 
definitely gone too far.
    This committee has earned a reputation as a truth-seeking 
body. We are gatherers of fact. We let the chips fall where 
they may. Knowledge, Mr. Chairman, is refined through 
continuous inquiry and, yes, through skepticism.
    Second, one of our witnesses will discuss this morning the 
issue of politicizing science. But has it itself become 
politicized? The title of today's hearing is telling. The mere 
convergence of politics and science does not in itself denote 
interference. I would caution the committee and policymakers 
everywhere not to contribute to the naive notion that science 
and politics can somehow be kept separate.
    Should it really surprise anyone that leadership at a 
Federal agency manages information in pursuit of their 
interests or their agenda?
    Is the choice of phraseology, for example, ``climate 
change'' versus ``global warming,'' the province of science 
alone or can it be allowed to reflect political as well as 
scientific considerations?
    Third, science, as we all know, evolves, living and 
breathing through the power of evidence. Policy needs to evolve 
along with it. Some in this room appear to believe we have 
reached the end of scientific continuum, but scientific 
consensus is not science. Sometimes it is nothing more than the 
best guess of the group that gets the microphone first.
    More than once strong scientific consensus of the past now 
lies in history's mass grave of disproved crackpots. The miasma 
theory of disease prevailed for a time because cholera 
outbreaks seemed to be associated with bad-smelling water. Less 
fetid water, though it reduced outbreaks, appeared proof of 
cause and effect until the germ theory identified the real 
culprit.
    The 19th century rain follows the plow theory attributed 
increased rain in arid areas to increased agricultural 
activities by man. Today it is understood that increased 
vegetation and urbanization have only limited and local effects 
on overall precipitation levels.
    So in the debate about climate change attribution, 
determining the role of human activity on measurable climate 
changes, all of us--policymakers, scientists and those 
fortunate enough to be neither--should take pains to maintain 
the healthy skepticism that is at the heart of good science and 
good policy. Without constant constructive doubt, both sides 
would have us take leaps of faith over the science to 
politically convenient conclusions.
    A wise man once wrote that science is facts. Just as houses 
are made of stones, so is science made of facts. But a pile of 
stones is not a house and a collection of facts is not 
necessarily science.
    Mr. Chairman, I requested the documents from CEQ because I 
wanted to learn more about the allegations that administration 
officials were trying to minimize the significance of climate 
change. I requested them because I care about climate change 
and, like you, want to do something about it.
    I am no denier, but I am troubled by stories of scientists 
unable to publish or even complete their research because they 
are perceived as having the wrong answers or being on the wrong 
side of the science, or the leveling of accusations that rely 
on innuendo and inference to prove scientists' intentions is 
nefarious when in fact often these scientists' only crime is 
associating with ideas that conflict with those of their 
accusers, or the notion that X policy action or inaction must 
follow from Y scientific finding without regard to other 
scientific findings or policy considerations such as economic 
inhibitors or geopolitical concerns.
    This committee takes very seriously its responsibility for 
ensuring individuals remain able to speak freely. Under my 
chairmanship and with your leadership, Mr. Chairman, we passed 
hallmark whistleblower legislation which enhanced the rights of 
Federal whistleblowers, giving them protection and confidence 
as they speak up. The monumental challenge of climate change is 
the latest test of free speech and whistleblower protections.
    Again, Mr. Chairman, thank you for holding this important 
hearing.
    [The prepared statement of Hon. Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.006
    
    [GRAPHIC] [TIFF OMITTED] T4913.007
    
    [GRAPHIC] [TIFF OMITTED] T4913.008
    
    [GRAPHIC] [TIFF OMITTED] T4913.009
    
    [GRAPHIC] [TIFF OMITTED] T4913.010
    
    [GRAPHIC] [TIFF OMITTED] T4913.011
    
    [GRAPHIC] [TIFF OMITTED] T4913.012
    
    Mr. Waxman. Thank you very much, Mr. Davis.
    I would like to ask, without objection, that we now call on 
Members in order of seniority in which they appeared at this 
hearing for an opening statement, should they wish to make one, 
not to exceed 3 minutes. Without objection, that will be the 
order.
    I would ask unanimous consent that the gentleman from 
Maryland, Representative Gilchrest, be permitted to participate 
in this hearing and in accordance with our committee practices, 
he will be recognized for the purpose of an opening statement 
and questioning after members of the committee have been 
recognized. Without objection, so ordered.
    I want to call on Mr. Cummings. Is he here?
    Mr. Cummings.
    Mr. Cummings. I am.
    Mr. Waxman. OK.
    Mr. Cummings. I will submit a statement for the record.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] T4913.013

[GRAPHIC] [TIFF OMITTED] T4913.014

    Mr. Waxman. Opening statements may be submitted by any 
Member for the record, and we will keep the record open for 
that purpose.
    Mr. Davis, do you have an opening statement?
    Mr. Davis of Illinois. Yes, thank you very much, Mr. 
Chairman, and I shall be brief.
    Global warming is a serious issue and has overarching on 
our Nation and our world citizenry for we have only one Mother 
Earth. There is no doubt that we must take measures to look 
into this. We cannot and must not let politics trump science. 
Too much is at stake.
    Ask those sufferers of environmental catastrophes from an 
extraordinarily strong hurricane season, most notably Katrina, 
to families who were victims of unsound pesticide regulation, 
whose children have suffered from the adverse effects on brain 
development in fetuses and children.
    Numerous well regarded and credible scientists have issued 
reports with regards to climate change and its far reaching 
consequences. Any effort by the White House Council on 
Environmental Quality to alter or undermine the integrity of 
such fact-finding is detrimental. We must take into full 
account the sound scientific evidence that some of our best 
minds have to offer and begin to comprehensively treat this 
problem immediately.
    Ask the thousands of rescue workers in the World Trade 
Center who were told by the EPA that the air was safe. Imagine 
what would happen if political tampering of scientific data is 
acceptable. This proclamation appears to be premature as our 
Nation's heroes are now plagued by chronic and crippling lung 
ailments. There are grave consequences from such action.
    Again, I want to thank you, Mr. Chairman, and Ranking 
Member Tom Davis, for holding this hearing today. It is long 
overdue, and I look forward to the expert panel of witnesses 
who have come to share with us.
    I yield back any additional time.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.015
    
    Mr. Waxman. Thank you very much, Mr. Davis.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    Quickly, I want to say climate change and global warming 
are one and the same for me. When the President submitted, 
President Clinton was negotiating the Kyoto agreement, the 
Senate 100 to 0 said don't exclude China and India. The treaty 
came back excluding China and India, and there were only about 
five Members of the Senate who supported it. President Clinton 
never asked for a vote in the Senate.
    My big regret is that President Bush, whatever his feelings 
were about the treaty, should have submitted it to the Senate 
for its consideration without prejudice because I believe 
frankly that there would have been less than 20 Members of the 
Senate who would have supported the treaty, but now it is like 
all of them would have.
    I just conclude by saying that anyone who alters scientific 
research, particularly on issues as important as this, should 
quit or should be fired.
    Thank you, Mr. Chairman.
    Mr. Waxman. Thank you, Mr. Shays.
    Mr. Tierney.
    OK.
    Mr. Clay.
    Mr. Clay. Thank you, Chairman Waxman and Ranking Member 
Davis for holding today's hearing.
    I welcome our witnesses and commend Mr. Piltz and Dr. 
Shindell on their courage in coming before this committee to 
testify about their experiences with the Bush administration's 
policy of misrepresenting global warming data for political 
reasons. It is apparent that you are both committed to fully 
disclosing the facts about global warming.
    It is imperative that the integrity of scientific research 
on global warming is ensured and that we do everything possible 
to give our children and our grandchildren a healthy 
environment. Reports that scientists working for Federal 
agencies have been asked to change data to fit policy 
initiatives are seriously disturbing and given the enormous 
health risks posed by global warming, it is unconscionable that 
any scientists would participate in such a dangerous plan.
    Emerging threats to health from climate change include 
malaria, lime disease and an alarming increase in asthma 
incidences in the United States. The American Public Health 
Association found that smog, increased pollen and carbon 
dioxide are fostering an epidemic in asthma in America's 
cities. The highest incidences of asthma in the United States 
are among African American toddlers and low income toddlers. 
Inner city children are most at risk for getting asthma due to 
poor air quality, increasing temperatures and the high 
concentration of carbon dioxide.
    Political appointees have no business distorting the facts 
or denying the realities of global warming. Global warming is 
not a myth or a distant threat. It is a reality that demands 
immediate action from our Government.
    We must implement policies to develop more renewable energy 
resources to drastically reduce automobile emissions and to end 
our dependence on oil and other fossil fuels.
    Unfortunately, the Bush administration has shown a blatant 
disregard for the health of the American people. They have 
shown they would rather safeguard the interests of big oil than 
preserve the future of planet Earth. This administration has 
not only failed to address the assault on climate change, they 
have contributed to this crisis.
    Global warming poses an overwhelming challenge to our 
responsibility to protect the Earth for future generations. I 
look forward to today's testimony and working with my 
colleagues to meet this challenge and to put an end to this 
administration's efforts to deny or undermine scientific 
knowledge about the global warming crisis.
    Mr. Chairman, I yield back the balance of my time and 
submit my statement for the record.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.016
    
    [GRAPHIC] [TIFF OMITTED] T4913.017
    
    Mr. Waxman. Thank you, Mr. Clay.
    Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman.
    There is some feedback happening in our mic system, I 
think. Am I the only one hearing that? It would be really nice 
to correct that if we have somebody available to do that.
    Mr. Waxman. We have people working on it. Let me just ask 
if all Members have their mics off in case any mic is on that 
might be causing it.
    Mr. Cannon. Mr. Chairman, my mic, when it is off, still 
works, or so the switch is. I am not sure if we have a more 
fundamental problem here.
    Mr. Waxman. You ought to be careful what you say when your 
mic might be on.
    Mr. Cannon. It might be me. [Laughter.]
    Mr. Waxman. Well, we will make the best of it. We have our 
best people working on trying to correct the problem.
    Mr. Cannon. One would hope that those would be at least of 
the equality of some of the climate change scientists we have 
in the world today.
    I wanted to thank you, Mr. Chairman, for holding this 
hearing and also associate myself with the remarks of the 
ranking member and Mr. Shays, in that the fact is I believe 
there is global warming and therefore it is a global problem, 
not just an American problem. On the other hand, I think there 
are some serious questions as to whether or not global warming 
is actually caused by man or how much of global warming is 
caused by man.
    What a relief. We can now think. This is all a plot to 
distort the thinking of our panel members, I am sure.
    I would like to submit a statement for the record, Mr. 
Chairman, and not belabor this but point out that science is by 
nature, especially when science needs to be funded, it is 
political. Suppression happens all over the place, and 
unfortunately suppression is complicated by bad science done by 
not very smart scientists who have an agenda that is more a 
matter of belief of emotion than it is clarity of thinking. In 
this whole process, I hope we come to be able to distinguish 
between what is an agenda and what is science and what is the 
data and how do we draw conclusions from that data.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Chris Cannon follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.018
    
    [GRAPHIC] [TIFF OMITTED] T4913.019
    
    [GRAPHIC] [TIFF OMITTED] T4913.020
    
    Mr. Waxman. Thank you very much, Mr. Cannon.
    Now we go to Ms. Watson.
    Ms. Watson. I want to thank you, Mr. Chairman, for 
convening today's hearing and your timeliness on this issue.
    The United States has only 2 percent of the world's oil 
reserves but accounts for 25 percent of the world's energy 
demand. Of the global supply, we consume 43 percent of motor 
gasoline, 25 percent of crude petroleum, 25 percent of natural 
gas and 25 percent of electricity. Currently, American demand 
for all these commodities is rising dramatically.
    The administration announced in 2002 that reducing 
greenhouse emissions and increasing spending on climate 
research to reduce emissions 18 percent by 2012 was a top 
priority, but their actions have not matched this pledge. Funds 
have been redirected for these purposes to spend on nuclear 
power and other non-renewable programs that do not reduce 
emissions.
    In addition, the allegation of political interference with 
the work of Government scientists is an additional example of 
how this administration is not taking the threat of global 
warming seriously. Global warming is occurring at a rapid pace 
today, and the consensus of the worldwide scientific community 
is that it will accelerate during the 21st century.
    Global warming and our related energy policies also raise 
national security concerns. One such concern is the prospect of 
international destabilization caused by the consequences of 
global warming such as the loss of land area or the loss of 
water resources.
    Mr. Chairman, as I have stated in previous hearings on this 
issue, we have a chance to start again to create adequate 
climate change research and development that we can help our 
world in the future. Political interference on this critical 
issue is unacceptable. We all live under the same skies. We are 
here today to investigate and resolve these allegations, and 
politics has no place in science.
    Thank you so much, Mr. Chairman, and I yield back the rest 
of my time.
    Mr. Waxman. Thank you, Ms. Watson.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Richard Lindzen, who is a professor of atmospheric science 
at MIT, a few months ago wrote in the Wall Street Journal about 
what he called the alarmism and feeding frenzy surrounding the 
climate change/global warming debate, and he said this. He 
said, ``But there is a more sinister side to this feeding 
frenzy. Scientists who dissent from the alarmism have seen 
their grant funds disappear, their work derided and themselves 
libeled as industry stooges, scientific hacks or worse. 
Consequently, lies about climate change gain credence even when 
they fly in the face of the science that supposedly is their 
basis.''
    Professor David Deming, a geophysicist said, ``The media 
hysteria on global warming has been generated by journalists 
who don't understand the provisional and uncertain nature of 
scientific knowledge. Science changes.''
    Robert Bradley, president of the Institute for Energy 
Research, wrote this in the Washington Times. He said ``The 
emotional, politicized debate over global warming has produced 
a fire, ready, aim mentality despite great and still growing 
scientific uncertainty about the problem.''
    He went on to say, he said, ``Still, climate alarmists 
demand a multitude of do-somethings to address the problem they 
are sure exist and is solvable. They pronounce the debate over 
in their favor and call their critics names such as deniers, as 
in Holocaust deniers. This has created a bad climate for 
scientific research and for policymaking. In fact, the debate 
is more than unsettled.''
    I appreciate your calling this hearing. This issue has 
become very politicized and emotional. It appears that most of 
those who support and say most of the alarmists about global 
warming are people who are funded directly or indirectly by the 
Federal Government. So we need to look into these things and 
see what the real truth is in this situation.
    Thank you, Mr. Chairman.
    Mr. Waxman. Thank you for your comments.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. Thank you to the 
ranking member for holding this hearing.
    I am going to submit my official remarks in the interest of 
time to the record, but I do want to say thank you to the 
panelists for coming before this committee and helping us with 
our work.
    With all due respect to my colleague who spoke previously, 
this is not a hearing on alarmism or the quality and integrity 
of the information that has been delivered to the Congress and 
to the White House by the scientific community. This is a 
hearing that will investigate allegations that attorneys, not 
scientists, attorneys formerly employed by the American 
Petroleum Institute, edited scientific documents that were 
meant to alert the public and alert the Congress to the effects 
of global warming. This is a hearing that will look into 
whether or not that data, that information, that scientific 
information that we would rely upon was distorted by this White 
House. That is what we are investigating here.
    We appreciate the courage of the panelists that have 
stepped forward to help Congress in making that decision. This 
is very troubling, not only in the sense that scientific data 
had been distorted and there had been an attempt to misinform 
the American people but also the concerted pattern and practice 
of this White House to censor these scientists has a chilling 
effect not only on these individuals but on a wider scientific 
community.
    We are here to exercise the right of the American people to 
get the truth. That is what we are here for today. It is not to 
debate the degree to which the atmosphere is warming or the 
extent to which global warming will impact us over the coming 
years and decades. This is really a question about governmental 
integrity and whether we are partners with our scientific 
community to protect the interests not only of the American 
people but our partners around the world.
    I appreciate that this chairman has had the courage to put 
this issue right out in front. It is the first hearing of this 
committee, and I think it sends a great message to the American 
people and to the scientific community that the work that they 
do is greatly appreciated and welcomed by this Congress.
    With that, Mr. Chairman, I will yield back the balance of 
my time.
    Mr. Waxman. Thank you, Mr. Lynch.
    Mr. Issa.
    Mr. Davis of Virginia. I think he stepped out.
    Mr. Waxman. Oh, he stepped out. Then we will go to Ms. 
Foxx.
    Mr. Platts.
    Mr. Gilchrest, OK.
    Mr. Gilchrest. Thank you, Mr. Chairman, just a very brief 
comment that is a little off topic but it sort of is relevant 
to this issue of whether or not there is enough scientific 
evidence to display for the administration or anybody else that 
there is human activity causing the climate to change.
    I would urge my colleagues to contact National Geographic. 
They have a genographic program where they have converged 
anthropologists and geneticists to see where your ancestors 
came from, and I participated in that, gave my DNA and the 
markers in my DNA went from here to Ireland to Spain all the 
way to Ethiopia about 50,000 years ago. The way they were able 
to do that, and by the way they spent about 5,000 years in Iran 
about 35,000 years ago before they migrated further west.
    The point is that there are DNA markers in human DNA that 
can actually be traced over millenniums back thousands and tens 
of thousands of years if we converge those two scientists, 
anthropologists and geneticists.
    If we do the same thing with the atmosphere, we converge 
meteorologists, atmospheric scientists with chemists and a 
variety of other people, you can trace the markers in 
CO<INF>2</INF> or methane or any one of the other atmospheric 
gases back not thousands of years but millions of years. When 
you look at those markers, those radioactive isotopes, 800,000 
years ago to just today, you can tell where the CO<INF>2</INF> 
comes from.
    Does it come from a volcano? Does it come from soybeans? 
Does it come from burning forests? They all produce C02. The 
markers, the distinctive markers, burning gasoline produces a 
marker in the CO<INF>2</INF> that is different from the marker 
in CO<INF>2</INF> coming out of volcanos.
    The point is there is an extraordinary amount of science 
that an individual, a Member of Congress, for example, pursuing 
an objective analysis can make a fairly quick determination by 
talking to a variety of interests in the scientific community 
to, yes, determine that the natural range of fluctuation has 
been interrupted, disrupted in the last hundred years to 
produce a huge increase in CO<INF>2</INF> from burning fossil 
fuel, and the markers are present there.
    Is science 100 percent? There is a principle of uncertainty 
that has been in the scientific community for quite some time, 
and the principle of uncertainty is that science is always 
working in the edge of the unknown. So a sense of tolerance to 
that result by us, I think, is pretty vital.
    I really appreciate the fact that the chairman and the 
ranking member are holding this hearing today.
    Thank you.
    Mr. Waxman. Thank you, Mr. Gilchrest.
    Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    I have no opening statement. I thank you for calling this 
hearing, and I look forward to the testimony of the expert 
panel that you have assembled.
    Mr. Waxman. Thank you.
    Mr. Braley.
    Mr. Sali. Mr. Chairman.
    Mr. Waxman. Yes.
    Mr. Sali. May I be recognized for an opening statement?
    Mr. Waxman. The gentleman is recognized.
    Mr. Sali. Mr. Chairman and Mr. Davis, it is a pleasure for 
me to join this distinguished committee. I look forward to 
serving with you as we do what we have been charged with: to 
examine fairly and honestly Government programs, contracts and 
expenditures.
    Today we begin these activities in the new Congress by 
reviewing the administration's actions with respect to the 
study of global climate change, but as all of us know, the 
issue before us is not really climate change itself. It is 
whether the Bush administration has manipulated facts, 
prevented scientific investigation or otherwise obstructed 
honest study of this critical issue.
    Mr. Chairman, I must say that the idea the administration 
has stifled inquiry and action is a bit hard for me to swallow. 
From 2001 through 2006, this administration devoted more than 
$25 billion to programs related to climate change, $25 billion, 
and where I am from in Idaho, that is a pretty good chunk of 
change. In addition, in 2003 and 2004 alone, in part due to the 
administration policies, U.S. greenhouse gas intensity dropped 
by about 4.5 percent. In the 2005 energy bill, the 
administration obtained $5 billion in tax incentives over a 5-
year period for what it calls, ``go clean energy systems and 
highly efficient vehicles, mandatory renewable fuel and energy 
efficiency standards.''
    The Bush administration's Advanced Energy Initiative is 
increasing by 22 percent Department of Energy research funding 
to help refine clean energy technologies to the point that they 
can be used effectively and at a modest price by ordinary 
Americans.
    Mr. Chairman, these actions are not the hallmarks of an 
administration that is seeking to curtail research or force 
certain results. President Bush and his team are committed to 
serious, effective and practical research and action. They put 
a lot of Federal money where the public commitments have been 
made, a lot of money. This administration has been working to 
safeguard our resources, reduce greenhouse gas emissions and at 
the same time help American manufacturing and mining and metal 
industries remain strong and competitive in the global 
marketplace.
    To cripple our industrial sector in the name of 
environmental quality is not good public policy or good 
science. It is mere ideology, zealotry in the name of 
environmental extremism. The Bush administration has taken a 
much more balanced course, and I applaud it.
    Mr. Chairman, I am concerned with the tenor of this 
hearing, with the general approach we will be taking in the 
next 2 years. I believe in oversight, in asking hard questions 
and in demanding appropriate accountability, but today's 
hearing seems less about finding answers than making an 
argument. I hope that perception is incorrect or if it is 
accurate, I hope it is not a foretaste of a partisan contention 
that will be cloaked as oversight.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Bill Sali follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.021
    
    [GRAPHIC] [TIFF OMITTED] T4913.022
    
    Mr. Waxman. Thank you.
    Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman, and thank you, Ranking 
Member Davis, for giving us the opportunity to discuss these 
important issues today.
    With all respect to my distinguished colleague from Idaho, 
I think that one of the biggest problems that we have right now 
with the Bush administration is captured in this Congress Daily 
A.M. headline, Panel Steamed Over Withheld Documents, which 
focuses on respect for the rule of law, respect for the 
jurisdiction of this committee and the deliberate withholding 
of information requested over a 6-month period in a bipartisan 
spirit, not just by this committee Chair but by the former 
Chair and the ranking member, and that sets a tone that I think 
should cause us all concern about the impact that the 
administration is having on the conduct of oversight in this 
Congress.
    I have a portrait in my office of one of my heroes, 
Clarence Darrow, someone who stood up for the integrity of the 
scientific inquiry and academic freedom and stood up for 
accountability and the rule of fact over fiction. I had the 
great privilege of graduating from the Iowa State University of 
Science and Technology where the first digital computing system 
was invented, and one of the things I know is that people who 
work in an academic environment need to have assurances that 
their inquiries will be free from political influence. That is 
what distinguishes us from other countries around the world and 
gives us the opportunity to make great advances as we have seen 
over the entire history of this country.
    One of the things I also know is that the Federal court 
system has set up a gatekeeping system to make sure that 
testimony presented in a court of law has the credibility of 
scientific inquiry behind it. Things like making sure that 
those scientific theories have been tested through peer review 
journals is an indication of what stands for academic freedom, 
stands for preservation of the integrity of the scientific 
process and the free marketplace of ideas. We need to get back 
to that system. We need to diminish the role of politics so 
that our scientists have the ability to give us the great 
discoveries we have come to depend upon them in making this 
country the place that it is.
    I look forward to working with the committee, and I also 
want to comment on how much appreciation I have for our 
witnesses today. I know what it is like to represent clients 
who have sat in your shoes. It doesn't take a lot of courage to 
sit back here and make comments and ask questions. It takes a 
tremendous amount of courage to sit where you are, and we 
appreciate your willingness to come and share your thoughts 
with us.
    I yield back the remainder of my time.
    Mr. Waxman. Thank you, Mr. Braley.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    I too want to echo earlier remarks that this has been a 
committee that on a bipartisan basis has been frustrated by an 
inability, not just in this area but in a number of areas, to 
get the kind of candid response and respect for the oversight 
responsibility of the Congress. I certainly hope today that 
this hearing will deal with the facts as to whether or not 
oversight is going to be properly done and respected in the 
future, and I say so for a couple of reasons.
    First of all, I think that the people out in the hinterland 
watching this, even the people in the gallery here today, 
understand that global warming is not a secret hidden from the 
American people by the Government. Certainly, Mr. Sali said it 
very well. There have been huge amounts of money, huge amounts 
of awareness as to global warming. There is a debate going on 
as to what part the human being plays in it and how much of it 
is simply us coming out of a mini ice age, and I believe good 
science should be used, employed, paid for and deliver us 
answers so that we can make intelligent decisions.
    Additionally, this committee in the last Congress spent a 
lot of time through our oversight hearings, realizing that 
CO<INF>2</INF> was only going to be beat by non-CO<INF>2</INF> 
products which includes nuclear, a subject that often is by the 
same people who insist on ending global warming is also 
rejected. I am hoping we can do that and more.
    I do recognize that this is a highly charged political 
subject, but it is my sincere hope that this committee will 
continue working on a bipartisan basis to recognize that as 
Presidents come and go, as Congresses change from one side to 
the other side having the chairman's gavel, that this committee 
has an ongoing responsibility, we take it seriously and we 
expect to get answers to our questions from whomever occupies 
the Oval Office or more specifically by the bureaucrats who 
stay there throughout one administration after another and tend 
to resist. That is what we are here, I hope, today to do is to 
recognize that it is time for us to assert our oversight role 
and insist on it.
    With that, I yield back and thank the chairman.
    Mr. Waxman. Thank you, Mr. Issa.
    Ms. Norton.
    Ms. Norton. Mr. Chairman, I thank you for this hearing, but 
I am sure that millions of Americans thank you for this 
hearing. I appreciate that you have made this your first 
hearing. So far as I know, it is the first hearing on global 
warming to be held in the House this session, and I know you 
have not simply gone down a list and picked this one out.
    This issue, the fate of the planet itself, simply has no 
rival in importance. Because the issue has somehow in our 
country become controversial--I am not sure that is true in 
most advanced countries--such a hearing might be perceived as 
blame-laying, but the reason for this hearing for Congress is 
surely to make sure that actions are taken and that information 
is not ever again suppressed. We need to be full speed ahead on 
this one. The elements that comprise global warming have a huge 
head start on this hearing.
    Mr. Chairman, the independence of church and state is 
gospel in our country. Well, the independence of science from 
politics ought to be the same in Government. We have the best 
science in the world. Its word has always been its bond. When 
we consider the dangers to public health and to the planet 
itself, the politicization of science is itself a catastrophe 
that simply must be avoided.
    Apparently, there had been one peer study, over against the 
hundreds, that said there wasn't global warming, but this 
administration chose to side with those who said no. There were 
no nuances apparent in its view.
    At the moment, the administration is defending in the 
Supreme Court of the United States, the position that 
CO<INF>2</INF> is not covered by the Clean Air Act. Without 
getting into the technicalities, that takes a huge stretch if 
you know anything about the act. Now the courts have to decide 
the issue, and if I know the courts, they will try to find some 
procedural way to avoid a scientific issue that shouldn't be 
there and shouldn't be in politics at all.
    We do not have the luxury, Mr. Chairman, of making up for 
lost time on this one. We have done that historically: 
disregard the losses; there will be more where that came from. 
Already, my great fear is that it is too late when you see 
glaciers melting. I know of no science that is likely to 
refreeze the glaciers or to reproduce their majesty.
    Mr. Chairman, I live and hope and only hope it is not 
already too late and I thank you again for this hearing.
    Mr. Waxman. Thank you very much, Ms. Norton.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman, for your leadership 
on this important issue.
    I would also like to express my appreciation to the 
witnesses with us here today for their efforts in calling 
attention to the disturbing pattern of interference and abuse 
of science surrounding global climate change. I applaud each of 
you for having the courage to have your voice heard.
    In my home State of Minnesota, we are uniquely affected by 
changing climate patterns because of our geography. We are at 
the intersection of three major ecosystems. Minnesota and 
Minnesotans are experiencing the effects of climate change, and 
my constituents are demanding action. Global climate change is 
one of the greatest challenges facing this Nation. We know that 
meaningful solutions will demand unprecedented cooperation, 
innovation, commitment and urgency.
    Over the past 6 years, enormous scientific consensus 
supporting the reality of global climate change did not fit the 
administration's agenda. As we have seen in other situations 
when reality doesn't fit the script, the White House rewrites 
reality to fit the script. Tragically, the Bush administration 
has led an effort to suppress and distort the science of global 
warming while providing protection and ensuring massive profits 
for the petroleum industry.
    Is this why the Bush administration feels so threatened by 
the issue of climate change that it engages in a calculated 
campaign to manipulate scientific documents and intimidate 
science? What justification does the administration give us for 
these actions?
    Congress has the responsibility and the duty to find the 
answers as to why the administration officials acted as they 
did, but the impacts of the administration's interference with 
the science of global climate change are already known. It is 
undermined the integrity of numerous Federal agencies. It has 
recklessly harmed the careers of many respected professionals. 
It has delayed popular consensus on the need to take action 
against global warming. I fear America will look back on the 
bush administration as the lost years: lost talent, lost time, 
lost solutions.
    While there is a need for science in the realm of political 
debate, we must fiercely guard against the intrusion of 
politics into scientific research and discovery, and that is 
why today's hearing is an essential first step. Through 
transparency, we will find accountability. Through 
accountability, we will create a new and higher standard, one 
in which science is required and the science that is given to 
the American people is correct and accurate.
    Thank you, Mr. Chairman.
    Mr. Waxman. Thank you very much, Ms. McCollum.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    First, for the record, I would like to take note of a 
recent book called the Republican War on Science by Chris 
Mooney. It is excellent reading. I can't help but note it has a 
blurb on the back from our distinguished chairman recommending 
that people read it.
    Second, let me mention a dinner party I attended about 2 
months ago here in Washington. The honoree was John Negroponte 
who was then the director of National Intelligence. He was 
there to receive an environmental award. It was very 
interesting because in anticipation of his remarks, word 
slipped through the crowd that he was not allowed to utter the 
words, global warming, at least not in the same sentence. 
Apparently, he was allowed to say the word, global, in a 
separate sentence and warming in a separate sentence, but not 
together. It sort of became a little parlor game during his 
remarks to see how closely he would fit the words, global and 
warming and not incur the wrath of the White House.
    I thought this was a sad statement of the current condition 
of our scientific community when a top and very eminent 
statesman like John Negroponte would be so hamstrung by the 
administration that he would not be allowed to utter the two 
words in conjunction. I thought that was an indignity to Mr. 
Negroponte and a sad comment on the level of the Bush 
administration to so hamstring its talented and capable 
appointees. Sadly, this is an effort on the part of the 
administration that has been going on for a long time.
    Another must read book is by Christine Todd Whitman, the 
former EPA Administrator, entitled It's My Party Too. In this 
book, she chronicles how President Bush promised in the 
campaign to do something about carbon emissions, then reversed 
his promise at the urging of four Republican Senators who were 
named in the book: Chuck Hagel, Jesse Helms, Larry Craig and 
Pat Roberts. This reversal took place while Christine Todd 
Whitman was negotiating on behalf of the United States in 
Trieste in Europe. So before she flew back, her legs were 
completely cut out from underneath her, embarrassing America 
and undercutting science in our community.
    This is not a Democratic diatribe. This is a Bush cabinet 
official's memoirs. What a sad condition our country has fallen 
into.
    I commend the scientists who will testify today. I am sorry 
I will not be able to be here for your entire testimony, but I 
look forward to reading it in detail.
    I thank the Chair.
    Mr. Waxman. Thank you, Mr. Cooper.
    Mr. Hodes.
    Mr. Hodes. Thank you, Mr. Chairman, for calling this 
hearing.
    In New Hampshire, we talk a lot about the weather, and 
folks where I come from notice that the weather is changing. We 
don't have a lot of snow this year. But we are not here to talk 
about the weather, and we are not here to talk about money 
spent or unspent. We are here to investigate rank political 
abuse.
    We live in an information age. When we as a Nation and as 
global citizens face rapidly changing climatic conditions, the 
integrity of scientific research is critical to wise 
policymaking.
    Before coming to Congress, I read numerous articles 
documenting concerns about the interference by the Bush 
administration with the conclusions of Government scientists. 
Allowing politics to trump science is dangerous business. 
Disinformation was once thought of as a fictional Orwellian 
construct. If it has happened here, we need to bring it out in 
the open and help restore good scientific practices without 
fear of retaliation, reprisal and control by political 
officials.
    The American people need good data and good science, not 
disinformation. If we are to effectively address global warming 
and make the right policy decisions, we need science unimpeded 
by political concerns.
    I thank the panelists for appearing. It takes courage to 
come and tell the truth, but the American people want it, they 
need it and, as Members of Congress, we expect it. So, thank 
you very much.
    I yield back. Thank you, Mr. Chairman.
    Mr. Waxman. Thank you for your statement.
    Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    Mr. Chairman, on my walk to the Capitol this morning, I 
passed a line of cherry trees that up until a few weeks ago had 
been blooming. Frankly, the sight of a cherry tree in the 
middle of winter, blooming, concerns me and a lot of us very 
deeply. I know why the tree was blooming. The high temperature 
on December 1st was 75 degrees. The high on January 6th was 70 
degrees and 67 on the 15th. Whether this is an anomaly of the 
season or a sign of a trend, I don't know, but today it feels 
like winter and I am pretty relieved.
    There is unequivocal scientific evidence that the Earth is 
warming due to human activities, specifically to the release of 
carbon dioxide emissions in the air. One would think that given 
these facts, the President would appoint someone amongst the 
talented pool of scientists in this country to look into the 
question. But proving once again that this President never 
misses an opportunity to miss an opportunity.
    Who does he appoint? A lawyer with no scientific training, 
a former oil industry lobbyist whose primary responsibility on 
certain days seemed to be disproving the link between 
greenhouse gases and the companies he was representing.
    If you look at the EPA's Web site on climate change, you 
will read ``that a causal link between the buildup of 
greenhouse gases in the atmosphere and the observed climate 
change during the 20th Century cannot be unequivocally 
established.'' Given the data that this committee, Mr. 
Chairman, has uncovered into the Bush administration's 
political interference in the scientific community, we should 
not be surprised.
    I thank the panel for having the courage to be here with us 
today. I look forward to your testimony, and I yield back the 
balance of my time.
    Mr. Waxman. Thank you very much.
    Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing today on the science of global climate 
change. This is the first substantive hearing I have had the 
opportunity to participate in as a newly elected Member of this 
body, and I believe the subject matter could not be more 
appropriate.
    In my own State of Maryland and especially within the Third 
Congressional District, we have a strong tradition of 
environmental advocacy rooted in a passion for the Chesapeake 
Bay, but the Chesapeake Bay, which is our Nation's largest 
estuary, does not escape the consequences of global warming. In 
fact, as a result of global warming, sea levels in the 
Chesapeake Bay area have risen at alarming levels over the last 
100 years. If continued unchecked, this phenomenon will cause 
entire bay islands to be submerged and destroy diverse plant 
and wildlife habitat across the bay watershed. Such a calamity 
would have a profound environmental and ecological impact but 
would also devastate Maryland's tourism and seafood industries.
    The scope of the challenge of global warming is 
international, but its impact on people in communities can be 
seen in how it has affected areas like the Chesapeake Bay 
region. Likewise, change must begin by examining our own 
personal behaviors and our own National energy policy which 
overwhelmingly depends on fossil fuels. Promoting change will 
be difficult, however, if the administration continues its 
systematic effort to understate the threat of global warming.
    Mr. Chairman, effective and responsive governance at all 
levels depends on receiving accurate and timely information. 
All too often, this administration has disregarded or in some 
cases suppressed information that does not support its 
particular ideological or political agenda. We have seen this 
pattern in the run-up to the Iraq War, in the crafting of the 
Medicare prescription drug legislation and, as is being 
demonstrated today, in the approach to global climate change.
    Today's hearing marks the beginning of a march back to 
fact-based decisionmaking at the highest levels of our 
Government.
    Mr. Chairman, thank you for your efforts to illuminate the 
true science of global climate change. I look forward to 
working with my colleagues to address this problem in a 
meaningful way. Today's hearing is not just about preserving 
our natural climate. It is about preserving the climate for 
open and honest scientific research and discussion.
    Thank you, Mr. Chairman.
    Mr. Waxman. Thank you, Mr. Sarbanes.
    Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman.
    For decades, the issues of climate change has focused on 
debate about science, and today the overwhelming scientific 
research shows that global warming is real, it is urgent and it 
requires immediate action. That consensus has not always been 
present with only a shrinking minority remaining as skeptics, 
but more often than not that skepticism has been driven by 
politics or economic motivations, not the facts. We have 
learned that outspoken scientists dedicated to following the 
facts where they lead have had their sound conclusions altered 
by those motivated by politics, not the truth, and scientists 
at the seven agencies that study climate change have reported 
such widespread abuses.
    Politically motivated suppression of science is not only 
irresponsible but highlights a careless and reckless disregard 
for the public that all of us are here to serve. We have an 
opportunity to investigate that because it is critically 
important to our future. The true test of leadership for 
scientists, for people in politics is an ability to face 
directly the realities that are often times difficult. To help 
us do that, we need honest scientific conclusions.
    I applaud the gentlemen who are here today to testify and 
provide us with their best scientific evidence.
    Thank you, Mr. Chairman. I yield the balance of my time.
    Mr. Waxman. Thank you very much, Mr. Welch.
    Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I am anxious to hear the witnesses, so I would like to 
submit my prepared remarks for the record.
    But I would just like to add that one thing I think we all 
can agree on is that in the area of global climate change, the 
Government, the Federal Government, has a critical role to 
play. Therefore, when it speaks, it has to speak with complete 
authority and credibility, and that can only be achieved if it 
is not unduly influenced by personal political agendas or by 
the agenda of special interests. I think these hearings can 
contribute to a large extent to creating that degree of 
credibility when the Government does speak on climate change, 
and I commend the chairman for organizing these hearings.
    I yield back.
    [The prepared statement of Hon. John A. Yarmuth follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.023
    
    [GRAPHIC] [TIFF OMITTED] T4913.024
    
    Mr. Waxman. Thank you, Mr. Yarmuth.
    Mr. Kucinich.
    Mr. Kucinich. I thank the Chair for holding this hearing. 
One has to ask: do you have to be a scientist to know that 
there is something quite unusual going on with our global 
climate? Do you have to be a Member of Congress to understand 
it?
    All over the world, people have seen the effects of global 
climate change: the intensity of storms, the frequency of 
droughts, the destruction of crops, rising sea levels, changes 
in migration patterns. I don't need a scientist to tell me this 
is happening because I see it myself.
    The problem comes when you get scientists who tell you 
something that is different from what you are seeing with your 
own eyes. Why do we even get trapped into that type of 
thinking?
    Remember the long parade of witnesses who used to come in 
front of congressional committees, generations ago and put TV 
commercials on the air that would tell people smoking was good 
for them. It was glamorous, sexy. That was backed by science.
    Today we have a planet that is smoking, and we are told 
that, don't worry, be happy. Yet we have seen scientific 
evidence presented and then subverted by this administration. 
We paid for the scientific studies, and then when the studies 
come forward, they are dismissed. We are not even getting what 
we are paying for.
    We are all citizens of the same planet, at least we would 
hope we are. We have a common destiny. We should share common 
concerns about the stability of the global climate and act to 
protect our planet. We need to challenge the type of thinking 
which separates us from our natural environment.
    Almost 30 years ago, a philosopher by the name of Morris 
Berman wrote a book called the Reenchantment of the World, who 
talked about the fundamental problem which comes from when 
human beings separate themselves from the very environment in 
which they breath in, which they drink. That type of thinking, 
that us versus them type of thinking, that dichotomist type 
thinking not only separates us from each other, but it is a 
precursor of war itself.
    This hearing becomes important when we understand our 
common aspirations to aspire to a stable global climate, about 
our common concerns which should be expressed, about great 
fluctuations in temperatures and the regular weather patterns. 
These changes in weather patterns, the more intense storms 
including hurricanes, Hurricane Katrina, ought to cause us to 
seek out scientists who are free to give us their best advice.
    There is substantial scientific certainty about climate 
change. Scientists are confident that global warming is 
happening. The vast majority of experts on the issue agree that 
human activities are to blame. I mean this is a call for 
leadership which unites the American people in taking a new 
direction for not just energy conservation but the development 
of alternative energies, green energies. But what happens is 
because scientific information is brought forward which 
disputes global climate change, the kind of massive unity that 
we need to take a new direction is slowed.
    I thank the Chair for holding this hearing and for his 
consistent leadership over the years to reclaim human dignity. 
Thank you.
    Mr. Waxman. Thank you very much for your testimony.
    Unfortunately, one of the glitches of this hearing today is 
that the green light seems to be on forever even if the time is 
expired. We will try to work that out, but at least we stopped 
the static for everyone.
    Mr. Kucinich. Thank you, Mr. Chairman. Everywhere I go in 
life, there is a green light. I appreciate that. [Laughter.]
    Mr. Waxman. To close out the opening statements, I want to 
call on the gentleman from Maryland, Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman, and thank you for 
your leadership in this very important issue.
    I think we can all agree that everybody is entitled to 
their own opinions, but not everybody is entitled to their own 
facts. We as a Nation invest billions of dollars every year in 
scientific research, whether it is at NIH, whether it is at 
EPA, whether it is at NOAA, and that is an investment made by 
the taxpayers and that investment is only as good as the 
reliability of the science that comes from that investment.
    That is why it is essential that the science that we do as 
a Federal Government is done free from political interference 
because if facts become twisted by the politics, then that is 
money wasted, taxpayer money wasted. I am afraid that over the 
past many years we have seen that kind of political 
interference. We all know of political science as one realm of 
inquiry. Under this administration, unfortunately, much more of 
science has become political science, and it is not just in the 
area of global climate change although that has been exhibit A.
    Here on Capitol Hill, the tone with respect to that debate 
was set by people like one of our colleagues on the Senate side 
who used to chair the Senate Environment and Public Works 
Committee, Senator Inhofe, who said, ``Global warming is the 
greatest hoax ever perpetuated on the American people.''
    This Congress in the past and the administration helped set 
the tone at the top that was placed over our scientists, our 
public servants who do this work day by day, trying to get at 
the right answers. The result has been a twisting of the 
science, not just in the area of global climate change.
    The Government Reform Committee looked at this question 
when it came to mercury control and regulations. In fact, the 
Inspector General, the independent Inspector General at the EPA 
found just more than a year ago that there had been 
interference through the political process on the science of 
mercury poisoning, the development of regulations in that area. 
This has been a problem endemic from the top in this 
administration.
    I represent a lot of Federal employees. I happen to 
represent a district that includes NIH, that includes NOAA, 
that includes the Nuclear Regulatory Commission, many others. 
Those are good people who are just trying to do their work and 
get at the facts and get the science for the benefit of the 
American people. I can tell you when I am able to talk to them 
one on one, when the political minders are not around, they 
tell me about the chilling effect from the top on the work that 
is done and on the influence that is brought to bear from the 
top on their work. I think it is high time that we had a thaw 
in that chilling influence, and I think this hearing and this 
new day on Capitol Hill is part of setting that new tone.
    Science should be fact-driven. We should not be driven by 
the political vagaries of any administration, whether it be 
Republican or Democrat. I think that is the message that we 
want to send to the good people in our Government who are 
working every day on behalf of the American people to get the 
answers.
    Mr. Chairman, let me just close on this. Yesterday evening, 
we had a hearing in Montgomery County, a bipartisan hearing, on 
legislation that has been proposed in the Congress on mental 
health and insurance coverage for mental health. Congressman 
Patrick Kennedy and Congressman Jim Ramstad, Democrat and 
Republican, had been going around the country on these issues.
    We invited a member, a representative from the National 
Institutes of Mental Health to testify, and that individual 
wanted to testify and 2 weeks ago was preparing testimony. We 
asked them only for their testimony on the science, mental 
health issues, the science of the brain. We weren't asking them 
to take a position on the legislation. We wanted to hear about 
the science. They were prepared to come.
    Yesterday just before we had the hearing, they were 
notified by their political minders at NIH that they could not 
come to a hearing attended by Members of Congress, Republicans 
and Democrats alike.
    It seems to me if the people in this country are making the 
kind of investment they are at NIH, that we should be able to 
have the benefit of their testimony, whether that hearing is 
held here in the U.S. Congress by members of the committee or 
in our districts, especially when the representative from NIH 
is an expert in the field and leader in the field and was eager 
to testify. It is just another example, it seems to me, of the 
politics getting in the way of allowing our public servants to 
inform the public about the best results from their scientific 
inquiry.
    Thank you, Mr. Chairman, for holding this hearing. I thank 
the witnesses for being here.
    Mr. Waxman. Thank you, Mr. Van Hollen.
    I thank all the Members for their opening statements.
    We are now going to hear from the witnesses who have been 
described as courageous, but I also want to describe them as 
patient. Let me introduce the witnesses.
    We have Dr. Francesca Grifo, senior scientist and director 
of the Union of Concerned Scientists, Scientific Integrity 
Program. She has over 20 years of experience directing science-
based projects and programs. She holds a Ph.D. in botany from 
Cornell University.
    Rick Piltz is the director of Climate Science Watch, a 
program that aims to hold public officials accountable for 
using climate research with integrity and effectiveness in 
addressing the challenge of global climate change. From April 
1995 until March 2005, Mr. Piltz worked at the U.S. Climate 
Change Science Program where he coordinated scientific research 
on climate change.
    Dr. Drew Shindell is an atmospheric physicist who studies 
climate change in atmospheric physics. He has worked at NASA's 
Goddard Institute for Space Studies for the last 12 years. In 
2004, Scientific American Magazine named Dr. Shindell one of 
the top 50 scientists in the country.
    Dr. Roger Pielke is a political scientist who has been on 
the faculty of the University of Colorado since 2001. He is a 
professor in the Environmental Studies Program and a fellow of 
the Cooperative Institute for Research in the Environmental 
Sciences.
    It is our practice in this committee to swear in, so if you 
would please rise, I would like to administer the oath.
    [Witnesses sworn.]
    Mr. Waxman. The record will note that each witness answered 
in the affirmative.
    I would like to ask each of the witnesses to give a brief 
summary of their testimony, to keep this summary under 5 
minutes duration. Unfortunately, that light may not tell you 
when the 5-minutes is up, but I will let you know when the 5-
minutes is up and then we would appreciate a concluding 
statement. Your written testimony that has been submitted in 
advance will be made part of the record in full.
    We thank you for being here.
    Dr. Grifo, why don't we start with you.

STATEMENTS OF FRANCESCA GRIFO, SENIOR SCIENTIST AND DIRECTOR OF 
     THE SCIENTIFIC INTEGRITY PROGRAM, UNION OF CONCERNED 
 SCIENTISTS; RICK PILTZ, FORMER SENIOR ASSOCIATE, U.S. CLIMATE 
 CHANGE SCIENCE PROGRAM; DREW SHINDELL, GODDARD INSTITUTE FOR 
SPACE STUDIES, NATIONAL AERODYNAMICS AND SPACE ADMINISTRATION; 
 ROGER PIELKE, JR., PROFESSOR, ENVIRONMENTAL STUDIES PROGRAM, 
 UNIVERSITY OF COLORADO AND FELLOW, COOPERATIVE INSTITUTE FOR 
             RESEARCH IN THE ENVIRONMENTAL SCIENCES

                  STATEMENT OF FRANCESCA GRIFO

    Ms. Grifo. Good morning, and thank you, Mr. Chairman and 
members of the committee for the opportunity to be here and 
address you. I come representing the Union of Concerned 
Scientists and scientists across the country.
    Political interference is harming Federal science and 
threatening the health and safety of Americans. Over 1,800 
Federal scientists from multiple agencies have reported 
concerns. Six hundred and ninety-nine scientists, that is 39 
percent of our respondents across nine agencies have reported 
that they fear retaliation for openly expressing their concerns 
about mission-driven work of their agencies.
    Four hundred and thirty-two scientists from five agencies 
reported that they were not able to publish work in peer review 
journals if it did not adhere to agency policies. That was 25 
percent of our respondents.
    From the report we are releasing today, 150 Federal climate 
scientists report personally experiencing at least one incident 
of political interference in the past 5 years for a total of at 
least 435 incidents.
    All branches of Government must have access to independent 
scientific advice. The thousands of scientists in the employ of 
the Federal Government represent a tremendous resource. We need 
strong action to restore integrity to Federal science in order 
to be prepared to face the complex challenges ahead of us.
    The Union of Concerned Scientists has documented scores of 
examples of such abuses in our online A to Z Guide to Political 
Interference in Science. This interference can take many forms 
from censorship and suppression of Federal science to 
dissemination of inaccurate scientific results and science-
based information to the manipulation of scientific advice. 
Over 11,000 scientists including 52 Nobel laureates and 
numerous other luminaries and science advisors to both 
Republican and Democratic Presidents dating back to the 
Eisenhower administration have signed our statement calling for 
a restoration of scientific integrity.
    Our investigations demonstrate that the problem goes deeper 
than just the high profile incidents and includes new examples 
from NOAA and NASA as well as the voices of hundreds of climate 
scientists from seven Federal agencies. Our investigations 
found high quality science struggling to get out. Nearly half 
of all respondents perceived or personally experienced pressure 
to eliminate the words, climate change, global warming or other 
similar terms from a variety of communications. Forty-three 
percent personally experienced or perceived changes or edits 
during the review of documents that changed the meaning of 
scientific findings.
    Barriers to communication hinder our National ability to 
prepare and respond to protect future generations from the 
consequences of global warming. Our investigation uncovered 
numerous examples of public affairs officers at Federal 
agencies taking an active role in regulating communications 
between agency scientists and the media, in effect, serving as 
gatekeepers for scientific information. We found agency climate 
scientists who had their press inquiries routed to other 
scientists whose views more closely matched administration 
policy and who routinely encountered difficulty in obtaining 
approval for official press releases. Two-thirds of respondents 
said that today's environment for Federal Government climate 
research is worse compared with 5 years ago and 10 years ago. 
Both scientists and journalists report that restrictive media 
policies and practices have hampered the communication between 
Government scientists and the news media. This limits the 
extent to which new scientific findings can enter the public 
and policy debate.
    The report includes a model media policy which encompasses 
the following: whistleblower protections, Congress must act to 
protect scientists who speak out when they see interference or 
suppression of science and all agency policies must 
affirmatively educate their employees of their rights under 
these statutes.
    Scientific freedoms, Federal scientists have a 
constitutional right to speak about any subject, so long as the 
scientists make clear that they do so in their private 
capacity. Scientists must also have a right of last review on 
agency communications related to their research.
    Scientific openness, scientists should not be subject to 
restrictions on media contacts beyond a policy of informing 
public affairs officials in advance of an interview and 
summarizing the interaction for them afterwards. Federal 
agencies should support the free exchange of scientific 
information in all venues.
    I just want to close with a quote from a NASA scientist 
from our survey. ``Civil survey scientists and engineers can 
and should be an unbiased reservoir of insights into different 
questions. If we can't be trusted to give insights on global 
change and funded to do so, who in the world will do it?''
    Thank you.
    [The prepared statement of Ms. Grifo follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.025
    
    [GRAPHIC] [TIFF OMITTED] T4913.026
    
    [GRAPHIC] [TIFF OMITTED] T4913.027
    
    [GRAPHIC] [TIFF OMITTED] T4913.028
    
    [GRAPHIC] [TIFF OMITTED] T4913.029
    
    [GRAPHIC] [TIFF OMITTED] T4913.030
    
    [GRAPHIC] [TIFF OMITTED] T4913.031
    
    [GRAPHIC] [TIFF OMITTED] T4913.032
    
    [GRAPHIC] [TIFF OMITTED] T4913.033
    
    [GRAPHIC] [TIFF OMITTED] T4913.034
    
    [GRAPHIC] [TIFF OMITTED] T4913.035
    
    [GRAPHIC] [TIFF OMITTED] T4913.036
    
    [GRAPHIC] [TIFF OMITTED] T4913.037
    
    [GRAPHIC] [TIFF OMITTED] T4913.038
    
    [GRAPHIC] [TIFF OMITTED] T4913.039
    
    [GRAPHIC] [TIFF OMITTED] T4913.040
    
    [GRAPHIC] [TIFF OMITTED] T4913.041
    
    Mr. Waxman. Thank you very much for your testimony.
    Before calling on Mr. Piltz, I understand that in order to 
get the timer to register on the front table, there needs to be 
an adjustment and we are going to have one of our people make 
that adjustment. I understand there may be a loud pop, so 
please don't get excited.
    Mr. Issa. Mr. Chairman, it took us most of those 12 years 
to get that working right, so good luck.
    Mr. Waxman. Well, we are going to do it in 1 minute, we 
hope. [Laughter.]
    If not, we expect to have 12 years to work on it, at least.
    Mr. Piltz, we will now hear from you. We welcome you here.
    Let me, just for housekeeping purposes, ask unanimous 
consent that all of the statements submitted by our witnesses 
will be made part of the record. Without objection, that will 
be the order.
    Mr. Piltz.

                    STATEMENT OF RICK PILTZ

    Mr. Piltz. Mr. Chairman, Ranking Member Davis, members of 
the committee, I greatly appreciate the opportunity to present 
testimony at this hearing, and there is considerable more 
detail in my written testimony.
    I endorse all of the conclusions and recommendations in the 
Joint Union of Concerns Scientists Government Accountability 
Project Report and to complement that, my testimony will focus 
on the administration's treatment of the National Assessment of 
Climate Change Impacts and the problem of the White House 
Council on Environmental Quality.
    From April 1995 until March 2005, I worked in the 
Coordination Office of what is now called the U.S. Climate 
Change Science Program, the Federal multi-agency Federal 
program that supports the scientific research on climate and 
associated global environmental change. I had various 
responsibilities and worked on many projects during those 10 
years. I worked directly with the agency leadership and with 
the senior professional staff in the Coordination Office.
    One key ongoing project for which I was responsible 
involved coordinating the development of and editing nine 
editions of the annual report to Congress, Our Changing Planet, 
which represents the governmentwide research program. In doing 
that, I would compile and edit into accessible language the 
contributions of about 90 scientists and science program 
managers in the Federal agencies and labs. Those reports were 
carefully reviewed and vetted and signed off on by the agency 
experts, and then they would go to the Executive Office of the 
President for final editing and the review and clearance before 
publication.
    During the 2001-2005 timeframe, I came increasingly to the 
conclusion that the administration was acting to impede 
forthright communication of the state of climate science and 
its implications for society and that the politicization of 
climate science communication by the current administration was 
undermining the credibility and integrity of the Climate Change 
Science Program in its relationship to the research community, 
to the program managers, to policymakers and to the public. So 
in March 2005, I left the program office, resigning my position 
in protest.
    I saw that the problem was manifested especially at the 
points at which scientifically based information regarding 
climate change was communicated to a wider audience, to 
Congress, to the public. It wasn't so much a matter of 
interfering with what scientists were publishing in geophysical 
research letters or other technical journals. It was when the 
science would come forward to be communicated to a wider 
audience, that the political gatekeepers would step in.
    Now, I am not a climate scientist by academic training, and 
I don't debate technical issues. I will leave that for Dr. 
Shindell and other eminent climate scientists, but I can tell 
you what happens when the climate science comes forward into 
this arena of wider communication and the collision between 
science and politics.
    Really among the issues that I regard as politically 
significant, particularly significant in this politicization, 
was the administration's treatment of the National Assessment 
of Climate Change Impacts which was carried in the 1997-2000 
timeframe pursuant to the Global Change Research Act of 1990. 
This was a report that was developed by a panel of climate and 
ecosystem scientists and other experts that is to this day the 
most systematic and comprehensive effort to assess the 
potential implications of global warming and climate change for 
the United States. The report identified a range of likely 
adverse societal and environmental impacts.
    This report has essentially been made to vanish by the Bush 
administration, all reference to it by Federal agencies has 
been prohibited. All use of it in reports to Congress and other 
climate change communications has been suppressed. The 
scientist stakeholder networks that developed this report have 
been abandoned and no follow-on work of a comparable sort has 
been undertaken.
    I discuss this in considerably greater detail in my written 
testimony, but starting in 2002, the White House Council on 
Environmental Quality placed Phillip Cooney as Chief of Staff 
at the table as part of the governance of the U.S. Climate 
Change Science Program. Now CEQ is a policy shop, not a science 
office. It is my understanding that Mr. Cooney was the 
proximate agent of the White House's directive to the Federal 
agencies to suppress the National Climate Assessment. Of 
course, he was not acting independently. He was an operative in 
a chain of command leading up to CEQ chairman on to the 
President, but there are many aspects of the way CEQ intervened 
to manipulate communication on climate change and this was one 
example.
    In conclusion, in addition to the UCS GAP recommendations, 
I would recommend it is very important to revitalize this 
national assessment process. Every member, I think, has a vital 
interest in this regional level, sectoral level analysis of 
putting the top experts together with direct communication with 
policymakers and other stakeholders to diagnose the problems 
and develop solutions. What you need, I think, is this direct 
unimpeded communication between the experts and policymakers 
and get the gatekeepers out of the way.
    [The prepared statement of Mr. Piltz follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.042
    
    [GRAPHIC] [TIFF OMITTED] T4913.043
    
    [GRAPHIC] [TIFF OMITTED] T4913.044
    
    [GRAPHIC] [TIFF OMITTED] T4913.045
    
    [GRAPHIC] [TIFF OMITTED] T4913.046
    
    [GRAPHIC] [TIFF OMITTED] T4913.047
    
    [GRAPHIC] [TIFF OMITTED] T4913.048
    
    [GRAPHIC] [TIFF OMITTED] T4913.049
    
    [GRAPHIC] [TIFF OMITTED] T4913.050
    
    [GRAPHIC] [TIFF OMITTED] T4913.051
    
    [GRAPHIC] [TIFF OMITTED] T4913.052
    
    [GRAPHIC] [TIFF OMITTED] T4913.053
    
    [GRAPHIC] [TIFF OMITTED] T4913.054
    
    [GRAPHIC] [TIFF OMITTED] T4913.055
    
    [GRAPHIC] [TIFF OMITTED] T4913.056
    
    [GRAPHIC] [TIFF OMITTED] T4913.057
    
    [GRAPHIC] [TIFF OMITTED] T4913.058
    
    [GRAPHIC] [TIFF OMITTED] T4913.059
    
    Mr. Waxman. Thank you very much, Mr. Piltz.
    Dr. Shindell.

                   STATEMENT OF DREW SHINDELL

    Mr. Shindell. Good morning, and I thank the committee.
    Mr. Waxman. There is a button at the base of the mic. Is 
that on?
    Mr. Shindell. Thank you. Good morning. I would like to 
thank the committee for the opportunity to testify this morning 
about climate change science and my personal experiences with 
communication of climate science.
    As Mr. Chairman noted, I have been a researcher at NASA's 
Goddard Institute for Space Studies for some time, and I am a 
lecturer at Columbia University as well, but today I am 
speaking here as an individual.
    Scientists provide information to policymakers and the 
public on issues affecting society. Climate change is clearly 
such an issue and one for which it is especially critical that 
decisions be made using the best available scientific 
information because the potential costs to society of action or 
of inaction are large.
    The Earth as a whole is unquestionably warming, and 
virtually all climate scientists believe that the evidence 
regarding a human role in this warming is clear and compelling. 
Multiple lines of evidence based on measurements, theory and 
modeling support these conclusions. The scientific evidence 
indicates that the Earth is now warmer than at any time during 
the last thousand years. While continued warming is inevitable, 
the seriousness of the consequences of climate change will 
depend upon societal action to limit the emissions of 
greenhouse gases and pollutants that are the dominant cause of 
global warming. These consequences include droughts and flood, 
increased severity of summer heat waves and rises in sea level 
that could devastate low-lying coastal areas.
    Although the scientific basis for the conclusion that human 
activities are altering Earth's climate is extremely strong, 
there are questions that are still raised over whether current 
scientific understanding justifies societal action. One of 
these arguments has concerned Antarctic temperature trends. 
While most of the planet has warmed rapidly during the past 
several decades, much of the Antarctic Continent has, by 
contrast, cooled. Lack of an adequate explanation for this has 
been cited as evidence that scientific understanding of climate 
change is simply too incomplete to warrant taking action to 
mitigate global warming.
    In the fall of 2004, a team I led at NASA published a paper 
providing an explanation of how ozone depletion over Antarctica 
and increasing greenhouse gases could together account for this 
observed cooling of Antarctica. The study was the first to look 
at how these two factors work together to influence Antarctic 
temperatures. It not only helped to explain the observed 
cooling but also predicted a warmer future for Antarctica based 
on projections of continued increases in greenhouse gases. This 
has clear implications, both for the debate on global warming 
and for potential sea level rise as Antarctica contains an 
enormous reservoir of water in its ice sheets.
    The NASA press corps and I wrote a press release on these 
findings to convey them to the broader public. While previous 
to this time, press releases had been issued rapidly and with 
revisions from headquarters that basically were made to improve 
clarity and style, this release was repeatedly delayed, altered 
and eventually watered down. When we at GISS inquired of those 
higher up the NASA chain what was going on, we were told in the 
fall of 2004 by the press corps that releases were being 
delayed because two political appointees and the White House 
were now reviewing all climate-related press releases.
    Scientists do not simply explore what we are most curious 
about. We know that our research is funded by the public, and 
we go to great lengths to provide policy-relevant information 
to support decisionmaking. While it was frustrating for me to 
see my work suppressed, even more importantly, it is a 
disservice to the public to distort or suppress information 
needed.
    But that experience is only one example of a series of 
actions that attempted to suppress communication of climate 
science to the public. Also during the fall of 2004, NASA 
headquarters insisted that a NASA press officer be present to 
monitor all interviews, either in person or in the phone, a 
measure most of us felt was unbefitting of a Democratic 
society. As with the interference with press releases, the 
restrictions were not imposed on other parts of NASA such as 
space science or even other areas of Earth science outside of 
climate research.
    NASA's new written policy of openness regarding press 
conferences and releases has been a welcome first step. This 
clearly defined policy is rather unique among Federal 
scientific agencies and should be emulated at others. As this 
policy seems to have come about in large part in response to 
scrutiny of political interference in communication, I hope 
that the interest evidenced by this morning's hearing will lead 
to continued improvements in policies to protect the integrity 
of Government science and its communication to the public.
    Even with the best possible information, policymakers must 
make subjective decisions in the face of uncertainty, but these 
types of decisions go on around us all the time, for example, 
when a doctor decides on treatment based on the best medical 
evidence, despite the fact that medical science doesn't know 
everything there is to know about human physiology. The public 
must trust the evaluation of the evidence by policymakers in 
the same way that patients must trust their doctors.
    Suppression of scientific evidence has undermined the trust 
between the public and policymakers and between scientists and 
policymakers. Cases where scientific uncertainties were 
exaggerated by political appointees have been equally 
troubling. Restoring the necessary trust will require the 
highest standards of scientific integrity and transparency in 
policies regarding scientists' interaction with the public and 
in decisionmaking on the urgent issue of climate change.
    I thank the committee for holding this hearing.
    [The prepared statement of Mr. Shindell follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.060
    
    [GRAPHIC] [TIFF OMITTED] T4913.061
    
    [GRAPHIC] [TIFF OMITTED] T4913.062
    
    Mr. Waxman. Thank you very much, Dr. Shindell.
    Mr. Pielke.

                 STATEMENT OF ROGER PIELKE, JR.

    Mr. Pielke. I thank the chairman, the ranking member and 
the committee for the opportunity to offer testimony this 
morning.
    My main point today is that politics and science cannot, in 
practice, be separated. Consequently, policies for the 
production, promotion and use of information in decisionmaking 
should be based on the realities of science and politics, not 
on the mistaken impression that they somehow can be kept 
separate. Efforts to separate them will in most cases only 
contribute to the pathological politicization of science.
    Now imagine the following situation: the President has in 
his administration a range of scientific experts on the most 
important policy issue of the day. However, the President is 
denied access to that advice by the manipulative actions of one 
of his primary advisors who we will call the Admiral. It turns 
out that the Admiral has the President's ear on matters of 
science, but he himself in fact has no formal scientific 
training. He justifies his actions on the belief that the 
United States is engaged in a fundamental religious, political 
and economic conflict between good and evil.
    When two leading Government scientists seek to provide 
advice to the President that differs from that being offered by 
the Admiral, the Admiral asks the FBI to open investigations of 
these scientists. One of the scientists subsequently faces a 
hearing to consider his lack of loyalty to the United States, 
and he never again works as a Government scientist.
    The other scientist warns that this case indicates to 
scientists that ``Scientific integrity and frankness in 
advising Government on policy matters of a technical nature can 
lead to later reprisals against those whose earlier opinions 
have become unpopular.''
    One of the Nation's leading scientists writes that the 
relationship between Government and scientists has been gravely 
damaged because the Government has given the impression that it 
would ``exclude anyone who does not conform to the judgment of 
those who in one way or another have acquired authority.''
    The year, 1954; the President, Dwight Eisenhower; the 
Admiral, Lewis Strauss; the scientists, Robert Oppenheimer, 
Hans Bethe and Vannevar Bush.
    This vignette drawn from Benjamin Green's excellent new 
book on Eisenhower's science policy along with the other 
examples recounted in my written testimony that discuss issues 
of science and politics from Richard Nixon through Bill Clinton 
show that science and politics have always been of concern for 
policymakers, and the subject of today's hearing indicates that 
today is no different.
    There are, however, reasons why today's conflicts are 
receiving more attention from scholars, political advocates and 
politicians. I will just quickly go through these. There are an 
increasing number of important issues that are related to 
science and technology. Policymakers and advocacy groups alike 
increasingly rely on experts to justify their favorite course 
of action. Congress, at least for the past 6 years and perhaps 
longer, has been derelict in its oversight duties, particularly 
related to issues related to science and technology.
    Many scientists are increasingly engaging in political 
advocacy. Some issues of science have become increasingly 
partisan as some politicians sense that there is political gain 
to be found on issues like stem cells, teaching of evolution 
and climate change. Last, the Bush administration has indeed 
engaged in hyper-controlling strategies for the management of 
information.
    Now, I will just give a few very short vignettes to 
illustrate how fundamentally science and politics are inter-
related. The language of science in public discussion lends 
itself to politicization. The New York Times reported last year 
that NASA scientists at the Jet Propulsion Laboratory had 
complained because they had been instructed to use the phrase, 
climate change, rather than the phrase, global warming. A 
Republican strategy memo did indeed recommend the use of the 
phrase, climate change, over global warming, and environmental 
groups have long had the opposite preference. Another Federal 
scientist in NOAA described how he was instructed by superiors 
not to use the words Kyoto or climate change.
    To cite another example, several years ago, the Union of 
Concerned Scientists, as part of its advocacy campaign on 
reducing greenhouse gas emissions, recommended use of the word, 
harbinger, to describe current climate events that may become 
more frequent with future global warming. Subsequently, 
scientists at NOAA, the National Center for Atmospheric 
Research, and the Fish and Wildlife Services Polar Bear Project 
began to use the phrase in public communication in concert with 
advocacy groups like Greenpeace. The term has also appeared in 
official Government press releases.
    Policymakers and their staff are, of course, intimately 
familiar with these dynamics. We have just recently seen them 
in practice as Republicans and Democrats have battled over 
framing President Bush's proposed troop increases as a surge or 
an escalation.
    An example of how easy it is to misrepresent science in a 
political setting, consider the memorandum prepared last week 
by the majority staff of this committee to provide background 
information on this hearing. The memorandum states quite 
correctly that a consensus has emerged on the basic science of 
global warming. It then goes on to assert that ``Recently 
published studies have suggested that the impacts of global 
warming include increases in the intensity of hurricanes and 
tropical storms.''
    It supports this claim by citing three papers, but what the 
memorandum does not relate is that the authors of each of the 
three cited papers recently participated with about 120 experts 
from around the world to prepare a consensus statement under 
the auspices of the World Meteorological Organization which 
concluded, ``No consensus has been reached on this issue.'' The 
WMO statement was subsequently endorsed by the Executive 
Council of the American Meteorological Society.
    Thus, the science cited in the committee memo is incomplete 
and misleading. Such cherrypicking and misrepresentations of 
science are endemic in political discussions involving science. 
What has occurred in the preparation of this memorandum is in 
microcosm the exact sort of thing we have seen with heavy-
handed Bush administration information management strategies 
which include editing Government reports and overbearing 
management of press releases and media contacts with 
scientists. Inevitably, such ham-handed information management 
will backfire because people will notice and demand 
accountability. This oversight hearing today is good evidence 
for that.
    My written testimony goes into far more detail on issues of 
press releases, agency media policies, empanelment of Federal 
advisory committees and other subjects which I would be happy 
to discuss with you further.
    Thank you.
    [The prepared statement of Mr. Pielke follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.063
    
    [GRAPHIC] [TIFF OMITTED] T4913.064
    
    [GRAPHIC] [TIFF OMITTED] T4913.065
    
    [GRAPHIC] [TIFF OMITTED] T4913.066
    
    [GRAPHIC] [TIFF OMITTED] T4913.067
    
    [GRAPHIC] [TIFF OMITTED] T4913.068
    
    [GRAPHIC] [TIFF OMITTED] T4913.069
    
    [GRAPHIC] [TIFF OMITTED] T4913.070
    
    [GRAPHIC] [TIFF OMITTED] T4913.071
    
    [GRAPHIC] [TIFF OMITTED] T4913.072
    
    [GRAPHIC] [TIFF OMITTED] T4913.073
    
    [GRAPHIC] [TIFF OMITTED] T4913.074
    
    Mr. Waxman. Thank you for your testimony.
    This committee has been trying to get documents from the 
administration since last July, and we have made requests on a 
bipartisan basis when Mr. Davis was chairman and I was the 
ranking member. Now that I am chairman and he is the ranking 
member, we are still making those requests.
    We have sent today a letter to Mr. James L. Connaughton, 
chairman of the Council on Environmental Quality, asking again 
for the information we requested. Without objection from any 
member of the committee, I would like to put the letter by 
Congressman Davis and myself in the record.
    Furthermore, the staffs of our committee, Democratic and 
Republican, were allowed to view these documents that we have 
requested in camera. They weren't allowed to take them out. I 
have a memorandum which provides additional information about 
the documents from the White House Council on Environmental 
Quality being sought by this committee, and I seek to make this 
memorandum part of the record as well. Without objection, that 
will be the order.
    The Chair recognizes himself to start off the questions.
    I thank all of you for your testimony.
    Many experts are telling us that global warming is one of 
the most severe environmental threats facing this Nation and 
the world. The challenges confronting us are potentially 
enormous. Therefore, I think policymakers have an obligation to 
understand the science, and we need to get that scientific 
information without any manipulation of the science, without 
any suppressing of the reports or misleading the public about 
the issues which seems to me would be a breach of the public 
trust. So we have been asking for this information.
    Dr. Shindell, you are one of the Nation's leading climate 
change scientists, and I want to discuss some of the documents 
that the committee staff reviewed and ask whether you are 
concerned about the issues in these documents.
    First of all, let me begin by asking you about some of the 
edits urged by the White House Office of Management and Budget. 
OMB asked that an EPA report be rewritten to remove the 
statement that global warming may ``alter regional patterns of 
climate'' and ``potentially affect the balance of radiation.'' 
Dr. Shindell, do you think this was an appropriate change in 
the document?
    The statement in the EPA draft was that climate change can 
alter regional climates and affect the balance of radiation. Is 
there any scientific justification for removing these 
assertions?
    Mr. Shindell. No. That is a very well supported statement. 
For the change in the energy balance of the planet, we have 
satellite data that have measured that balance directly for 
decades now, and we can see it changing, and it is extremely 
well documented and uncontroversial.
    As far as regional patterns, I mentioned before, Antarctica 
has gone the other way from the rest of the globe. Different 
areas have warmed more, others less. It is quite clear that 
this is happening.
    Mr. Waxman. Another edit deleted the phrase, ``changes 
observed the last several decades are likely mostly the result 
of human activities,'' and that phrase was replaced with a 
phrase that said, ``a causal link between the buildup of 
greenhouse gases in the atmosphere and the observed climate 
changes during the 20th century cannot be unequivocally 
established.'' Is this an appropriate change? Does the 
rephrasing accurately represent the science or does it mislead 
the public?
    Mr. Shindell. I would say that is also a misleading 
statement. While technically true, the first statement that 
human activities play the dominant role is a much, much more 
accurate picture of the science.
    Mr. Waxman. Some of the edits we reviewed were made by CEQ 
Chief of Staff Phillip Cooney. Now Mr. Cooney is not a 
scientist by training. Instead, he is a lawyer who was working 
as a lobbyist for the American Petroleum Institute before he 
was appointed to his position at the Council on Environmental 
Quality. I would like to ask you some questions about his 
edits.
    In one document, Mr. Cooney deleted a reference to the 
National Research Council's finding that human activities are 
causing temperatures to rise. Obviously, the National Research 
Council is this country's premier scientific body. Can you tell 
us if there is a scientific basis for deleting a reference to 
this finding?
    Mr. Shindell. No. That is again a well supported statement.
    Mr. Waxman. In the same document, Mr. Cooney deleted the 
phrase ``climate change has global consequences for human 
health and the environment.'' Is there anything scientifically 
questionable about this phrase?
    Mr. Shindell. Again, no.
    Mr. Waxman. Yet another edit, Mr. Cooney wrote that 
satellite data disputes global warming. Is this scientifically 
valid?
    Mr. Shindell. No. There was for many years a controversy 
where satellite data showed warming but to a different degree 
than was seen at the surface or that was predicted by models 
higher up in the atmosphere. It never disputed global warming, 
and that controversy has since been resolved.
    Mr. Waxman. If climate change presents an incredibly 
serious problem, then we need to get the facts and rely on 
Federal scientists and agencies to give Congress and the public 
the true facts about this global threat. Yet the preliminary 
evidence we are seeing from the White House suggests that the 
administration may have taken a very different approach. If the 
documents we have seen so far are representative, it appears 
that the White House installed a former oil industry lobbyist 
as the Chief of Staff for the Council on Environmental Quality 
and then systematically sought to prevent the Environmental 
Protection Agency from reporting on dangers to health, the 
environment and the economy. In effect, it appears that there 
may have been an orchestrated effort to mislead the public 
about the threat of global climate change.
    These are serious allegations, and they are ones that we 
will be exploring in detail in this hearing and in our ongoing 
investigation.
    I thank the witnesses very much for answering my questions. 
I do have further questions, and we will have a second round 
for Members who wish to pursue a second round.
    Mr. Davis, I yield to you.
    Mr. Davis of Virginia. Thank you.
    Dr. Shindell, let me just say I am not asking and you can't 
produce it today, but I would be very interested in looking at 
the initial drafts that you had on the press releases and then 
at the end result. It would give us, I think, a clue in terms 
of what the administration did. I don't have copies of that, 
but if you could produce that, that would be helpful.
    Mr. Shindell. Sorry, I didn't follow.
    Mr. Davis of Virginia. The initial drafts of press releases 
that came out that you said were manipulated and changed over 
time, I would be interested in seeing the draft that came from 
the scientist and the end result that came out. I think that 
would give the committee a good clue in terms of what 
transpired in between.
    Mr. Shindell. Yes, and there is more detail about that in 
my submitted written testimony.
    Mr. Davis of Virginia. I understand that, but if you could 
produce the document, that would be helpful to us as we work 
forward.
    Mr. Shindell. OK.
    Mr. Davis of Virginia. Thank you.
    Dr. Pielke, let me just ask you. In your testimony, you 
talk about scientists or advocacy groups or even politicians 
cherrypicking the best facts and using them in a way that is 
most advantageous to their argument. This is also been called 
fact-slinging. Why is this approach wrong and harmful to the 
process?
    Mr. Pielke. Well, I think it is inevitable.
    Mr. Davis of Virginia. Push your button there.
    Mr. Pielke. I think it is inevitable. I think whenever 
people make an argument for a particular course of action, they 
are going to frame their perspective in the best light 
possible. When you go out on that limb and you present 
information selectively or, worse, you misrepresent it, you 
will get called on it. It will damage your own credibility. So 
I think advocates of all stripes, it is unavoidable to be 
selective in presentation of information.
    Mr. Davis of Virginia. I guess we would like to navigate 
away from that environment and the reason I have joined Mr. 
Waxman in a request for documents from the administration, we 
need to get everything laid out in fact. I think there is some 
cherrypicking going on back and forth. It doesn't help when we 
can't get them all, but it is important to get everything out 
there so we can get a complete picture and then make an 
appropriate analysis of what has and hasn't happened.
    I wonder if you could discuss the policy reasons for 
executive agencies vetting the work of their employees before 
public comment is made on behalf of the agency.
    Mr. Pielke. Well, there is a long----
    Mr. Davis of Virginia. Is this a new process?
    Mr. Pielke. It is not. For example, the Office of 
Management and Budget has, at least since the 1920's, gone over 
witness testimony from Government employees. The reason----
    Mr. Davis of Virginia. Of both parties, right?
    Mr. Pielke. Of both parties, and the reason for this is 
that the governance of the United States would be impossible if 
every Government employee were able to go out and interpret the 
laws, policies in the way that they saw them. Imagine if 
officials at the State Department below the top, every single 
one of them were going out and voicing their views on Iran or 
the Israeli-Palestine conflict. It would be, it would be chaos, 
complete chaos. So at some level from the standpoint of policy, 
Government has to coordinate its actions.
    This becomes difficult when science is involved because the 
view is that we can somehow separate science and politics. Let 
scientists only talk about science. Let the policy, political 
appointees only talk about the politics. But the reality is 
science and politics are intermixed. A phrase like dangerous 
climate change relates to the framework convention on climate 
change. So if scientists in their official remarks say that 
phrase, they are engaging in a political discussion.
    I should point out NOAA and NASA have----
    Mr. Davis of Virginia. They may or may not be right, but 
that is their opinion and not the opinion the elected leaders.
    Mr. Pielke. I want to point out NOAA and NASA have two 
different approaches to how scientists communicate with the 
public. NASA has said that its scientists can take off their 
agency hat and speak as individuals. NOAA has said in its media 
policy that they always speak for the agency. This is a perfect 
topic for congressional oversight. What makes the most sense? 
Does it makes sense to have scientists take off their hat or 
not?
    I don't have an answer for that, but we do have 
inconsistencies across the different agencies.
    Mr. Davis of Virginia. We don't either, and our goal here, 
I think, is to just get the facts and lay them out and then the 
public can judge appropriately where truth lies.
    This age-old process may qualify as politicization, but it 
also can reflect a rational policy by a Presidential 
administration in both parties as well to carry out what they 
perceive as their mandate.
    Mr. Pielke. Yes. Now let me say politics is how we get done 
the business of society, and in popular parlance with the 
public, politics has kind of a pejorative, negative notion. But 
I think the Government funds about $140 billion worth of 
scientific research, so it will be relevant to politics.
    Mr. Davis of Virginia. In one of your writings, you stated 
that well-regarded scientists who are known believers that 
global warming is happening also believe the debate will not be 
settled for more than a decade. If that is the case, then why 
is it the only scholars we hear from are the ones that believe 
it is so glaringly obvious that only a fool or an idiot could 
question it?
    Mr. Pielke. The statement you refer to is with respect to 
the debate over tropical cyclones and climate change, and 
indeed I think the general consensus is that it is going to 
take some more research on that topic.
    On the issue of global warming generally and particularly 
global average temperatures, I point you to the 
Intergovernmental Panel on Climate Change [IPCC], and Dr. 
Shindell can probably represent that better than I.
    Mr. Davis of Virginia. Well, Mr. Connaughton was up here 
before us, and he admitted that there was climate change or 
warming going on, that in fact it was manmade and I think we 
need to get to once we establish those parameters, then we can 
make intelligent policies in terms of how we deal and what are 
the ramifications with it. But there was no denial in the 
administration when they were up here last year as well. I hope 
we will get them back once they produce the documents, and they 
can more fully talk about what their edits are and the like, 
and we can have a better opportunity to address that.
    It looks like my time is up.
    Mr. Waxman. Thank you, Mr. Davis.
    Mr. Davis on our side.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman, 
and I want to thank all of the witnesses for appearing.
    Mr. Piltz, let me ask you. You worked as a senior associate 
in the Federal Climate Change Science Program. This is the 
office that coordinates Government climate research. You 
resigned in March 2005 after 10 years in the office. Can you 
basically tell us why you resigned?
    Mr. Piltz. Yes. I had increasingly come to see that the 
administration was politicizing the communication of the 
climate research. It is a $2 billion a year research program 
involving 12 agencies, and from time to time this research gets 
put together and assessments reports to Congress and so forth, 
communicating to a wider audience. That is the point at which 
administration political gatekeepers would step in to either 
ignore the report if they couldn't stop it from being published 
and misrepresent the intelligence in it if they needed to or 
just flat out directly edit it if they could.
    I was particularly concerned with this communication 
function. That was what I was doing, and it became increasingly 
impossible to work in that environment and to see this going 
on.
    Mr. Davis of Illinois. Now let me ask you. You were there 
for 10 years.
    Mr. Piltz. Yes.
    Mr. Davis of Illinois. Which means that you were there 
prior to the current Bush administration.
    Mr. Piltz. That is right, 5 years under the previous 
administration and 5 years under the Bush administration.
    Mr. Davis of Illinois. So how does this action or activity 
compare with that of the previous administration?
    Mr. Piltz. It is a good question, and let me say first of 
all that no administration is above criticism, but I do think 
that there was a significant difference under the previous 
administration. The key liaison to the Climate Change Research 
Program was the White House Science Office. Those were 
scientists, and they, their way of thinking and talking and 
writing about climate change was well within the mainstream of 
the climate science community which I think they were trying to 
feed into the policy process.
    This was a different situation under the current 
administration where you had people who were not scientists, 
whose concern was not to make the communication clearer and 
more accurate but to spin it politically so that the science 
would not be communicated in such ways to threaten the 
administration's political position. The administration had 
made a decision up front it would not support a regulatory 
constraint on greenhouse gas emissions, and it seemed to me 
that they were uncomfortable with any straightforward 
presentation of the growing body of scientific evidence about 
global warming.
    Mr. Davis of Illinois. Now let me ask you. You also 
discussed editing in your testimony.
    Mr. Piltz. Yes.
    Mr. Davis of Illinois. Mr. Phillip Cooney was the Chief of 
Staff at the White House Council on Environmental Quality. We 
have established that he was a lawyer and not a scientist. 
Until 2001, he worked at the American Petroleum Institute as a 
lobbyist and as their climate team leader.
    You testified that Mr. Cooney made handwritten edits to 
several science program reports in 2002 and 2003. Is that 
correct?
    Mr. Piltz. Yes.
    Mr. Davis of Illinois. Generally, what type of edits were 
these?
    Mr. Piltz. It was a very large number of edits. They came 
at the 12th hour, the process after all of the career 
assignments people had signed off and it never went back to 
them. They had the aggregate effect of creating an enhanced 
manufactured sense of fundamental scientific uncertainty about 
global warming, of toning language about observed warming and 
impacts, of basically discarding any idea that climate models 
were useful and deleting language about the observed or 
projected impacts of climate change.
    Mr. Davis of Illinois. Let me just ask you.
    Mr. Piltz. Sure.
    Mr. Davis of Illinois. Was it part of your responsibility 
to help prepare these documents or similar documents, so you 
are testifying on the basis of firsthand knowledge, not on the 
basis of something that you heard, read or were told about?
    Mr. Piltz. No. I had to deal with the edits directly, yes, 
sir.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Chairman, I suspect that my time is up.
    Mr. Waxman. Yes, thank you very much.
    Mr. Davis of Illinois. Thank you.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    I know it is anecdotal, but how many scientists can raise 
their hand here on the dais? Just checking. I won't ask how 
many lawyers up here. That would be telling.
    Mr. Piltz, I think I will start with you. Your degrees and 
background are political science?
    Mr. Piltz. Yes.
    Mr. Issa. So you are not a scientist.
    Mr. Piltz. No, I am not a climate scientist.
    Mr. Issa. Would it be fair to say you are no more qualified 
to evaluate these edits than the petroleum lawyer, is that 
right? I mean in the greater world of scientist, non-scientist.
    Mr. Piltz. I think that climate scientists who look at the 
edits would regard them as, in the aggregate, pretty egregious, 
but I am not arguing particular points.
    Mr. Issa. I appreciate that. I just wanted the simple 
answer. We have been trashing a lawyer I have never met, and I 
am happy to trash all lawyers, but what it comes down to is he 
wasn't a scientist, you are not a scientist.
    My understanding is Mr. Cooney's edits or proposed edits 
were then reviewed by a scientific committee convened by the 
National Research Council, and many of his edits were then 
disregarded.
    Mr. Piltz. No.
    Mr. Issa. I will be very surprised if my staff is somehow 
misunderstanding the fact that his edits were not the last 
word. In fact, there was further scientific review that I am 
missing in your testimony.
    Mr. Chairman, I hope we can get to the bottom of that 
because I am not sure that discrepancy can be easily worked out 
by witnesses.
    Dr. Grifo, I know you are fairly new to UCS. You have been 
there, what, about a year, something like that?
    Ms. Grifo. A little longer.
    Mr. Issa. And you come out of Columbia.
    Ms. Grifo. Yes.
    Mr. Issa. But do you know the history of the organization?
    I am trying to understand a little bit more. My 
understanding is UCS was formed at MIT to oppose the Vietnam 
War in 1968. Is that roughly correct?
    Ms. Grifo. No, sir, that is an incorrect characterization.
    Mr. Issa. Was it formed in 1968?
    Ms. Grifo. Yes, sir.
    Mr. Issa. Was it formed at MIT?
    Ms. Grifo. Yes, sir.
    Mr. Issa. Did it oppose the Vietnam War?
    Ms. Grifo. I have no idea, but that was not its purpose in 
its forming.
    Mr. Issa. Well, moving down a little bit, you would 
characterize your group as a peer watchdog organization?
    Ms. Grifo. No, sir. We are a science-based non-profit.
    Mr. Issa. You do a study that sends out from a list that 
you generate. You send out 1,600 questionnaires by email. You 
get back 19 percent of them. Then you come up with a whole 
series of assumptions, and you bring them here and say this is 
what the science community says.
    I may not be a scientist. Matter of fact, I am definitely 
not a scientist or a lawyer, but I will tell you here today 
because I am very concerned about what is being brought to us 
as science. If I take all of the subjective answers to emails, 
press statements, etc. that come into my office anecdotally 
from my constituents, I would find 100 percent chance that they 
want all illegals taken out of the country and no guest worker 
program because there is almost 100 to 0 response. Self-
selected, those are the people I hear from. The people who 
think maybe a guest worker program wouldn't be bad, you have to 
really tear it out of them.
    I would only say that in the future if you are going to 
bring us studies that they live up to, let us say, the 
standards of John Zogby and not some sort of an email self-
serving response. I was very disappointed in seeing that.
    Ms. Grifo. Excuse me. May I respond?
    Mr. Issa. Of course.
    Ms. Grifo. Thank you very much for the opportunity.
    Our methodology was in fact quite a bit more complex than 
the way that you have characterized it. We spent an enormous 
amount of time and energy looking through the climate documents 
of the Climate Change Research Group, Web sites. The Government 
does not publish in fact a directory of its Federal climate 
scientists. So we did in fact have to go through and produce a 
list. We had very strict criteria for which scientists we 
included on this list. We had strict criteria for their 
backgrounds and so on.
    Mr. Issa. OK, and I appreciate that. Can you make that 
available to us?
    Ms. Grifo. Absolutely.
    Mr. Issa. Is there peer review scientific oversight of your 
selection and was there an offset to say that your selection 
was valid or invalid? In other words, Dr. Pielke, would he in 
fact have had a chance to say, oh, this is a bad list, you 
missed 300, 400? Was there any kind of an independent review?
    Ms. Grifo. Yes, sir.
    Mr. Issa. And by whom?
    Ms. Grifo. By a number of climate scientists across the 
community, and in fact Mr. Piltz was one, and there were 
several others. I can get you that list.
    Mr. Issa. Mr. Piltz is a political scientist.
    Ms. Grifo. But he is aware of who are the Federal climate 
scientists doing that kind of research, and he was one of many 
individuals that looked at it.
    Mr. Issa. I appreciate it. I am afraid I don't think that 
you have made your case.
    Ms. Grifo. I am not quite done, sir.
    Mr. Issa. Dr. Pielke, you said in your statement, and I 
think it is very notable, that there is going to be politics in 
all of this.
    Mr. Chairman, how is my time?
    Mr. Waxman. Go ahead and finish your question.
    Mr. Issa. Let me just ask one simple question. During the 
Eisenhower period you mentioned, isn't true that while 
President Eisenhower was leading the war against the Soviets, 
he was in fact downplaying the risk and the threat while 
funding the very things that allowed us to win the cold war? 
Isn't that essentially the story of Eisenhower's managing of 
things like that threat?
    Mr. Pielke. I think, essentially, in a soundbite fashion, 
that is accurate, but the story of Eisenhower and particularly 
the nuclear test ban efforts--this was before my time in 
academic literature--is that there was tremendous conflict 
among competing scientists, all very preeminent, about the 
politics of whether we wanted to engage in a nuclear test in 
the atmosphere or not illustrate how science came to become 
very politicized even 50 years ago.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Waxman. Thank you, Mr. Issa.
    Ms. Watson.
    Ms. Watson. I want to thank all the witnesses that are here 
today for being direct and answering the questions directly. 
There is no attempt to intimidate. We are trying to get 
information. So my questions go to Dr. Grifo.
    Making available the study results lead me to raise these 
questions. What percentage of the scientists personally felt 
pressured to eliminate the words, climate change, global 
warming or similar terms from their scientific communications?
    I have been told as a Member of Congress, do not use the 
word, global warming. Well, they are telling me. They don't 
know who I am. And so, can you answer that, please?
    Ms. Grifo. Yes, thank you very much. Forty-six percent 
perceived or personally experienced pressure to eliminate those 
words, and I would say that is a total of 147 climate 
scientists. So that number should be zero.
    Ms. Watson. Those are Government scientists who felt 
pressured to avoid even using the words, climate change or 
global warming?
    Ms. Grifo. Yes.
    Ms. Watson. That is the number?
    Ms. Grifo. Yes.
    Ms. Watson. Because I know what I was told. OK, thank you.
    Did any scientists see their work or the work of others 
changed or edited during reviews in ways that changed the 
meaning of their scientific findings?
    You might have referred to that. I happened to be in the 
back. I had a conference. And so, could you respond?
    Ms. Grifo. Yes, thank you. Forty-three percent which was 
over two in five of our respondents, and I would also say that 
is 128 Federal climate scientists who personally experienced or 
perceived changes or edits during review that changed the 
meaning of their findings.
    Ms. Watson. Were their scientific findings ever 
misrepresented by agency officials?
    Ms. Grifo. Yes, in fact, 37 percent of our respondents 
which is 110 Federal climate scientists perceived or personally 
experienced agency misrepresentation of their findings.
    Ms. Watson. How many total instances of political 
interference did Government climate scientists report?
    Ms. Grifo. That was 400, at least 435. We had a range in 
each of the questions that they could answer. So that is the 
smallest number. It may indeed be much higher.
    Ms. Watson. How many Government scientists personally 
experienced political interference?
    Ms. Grifo. Personally experienced? I will have to get you 
that number. I don't have it in front of me, but it is a large 
percentage----
    Ms. Watson. Now let me ask Mister----
    Ms. Grifo. 150, thank you.
    Ms. Watson. 150, OK, thank you.
    Mr. Piltz and Dr. Shindell, do these numbers surprise you? 
First, Mr. Piltz.
    Mr. Piltz. They surprise me a little bit that it is quite 
so high. I was aware of particular case studies, but this shows 
me that this s a much more pervasive pattern throughout the 
agencies than even I was aware of before.
    Ms. Watson. Dr. Shindell.
    Mr. Shindell. Yes, I had been aware of this mostly amongst 
the most prominent, the lab directors at the various research 
institutes. So this indicates that it is more widespread than I 
expected as well.
    Ms. Watson. I am wondering, Dr. Grifo, if we could actually 
get some of the scientific reports that have been changed, the 
wording has been changed. Can we get those? I think there was a 
request from the minority ranking member, and if we could get 
that, it would certainly help.
    I think this kind of thing must stop. I have witnessed the 
administration politicizing factual information and misleading 
the Americans. I will not be misled, and I would like the facts 
in front of me. The interpretation of the facts is what we need 
to hear and see because I think many of us are being misled. We 
cannot stand for that.
    I want to thank you very much and thank you, Mr. Chairman.
    Mr. Waxman. Thank you, Ms. Watson.
    Mr. Sali.
    Mr. Sali. Thank you, Mr. Chairman.
    For Mr. Shindell, Mr. Shindell, every office that is 
represented by the membership on the dais up here has a vetting 
process for every statement that goes out of our offices. Of 
course, everyone would agree that tends to be political in 
nature, and we want to make sure that the political discussion 
ends up with one voice that represents the top of the heap, if 
you will. I don't suppose that there is anybody on this dais 
that would think that is problematic. However, when we talk 
about this issue and the matters that go on in this hearing, we 
are going to be issuing similar statements.
    Do you have any guidance for this committee about how we 
might make that transition from science to politics to get the 
truth out to the people, recognizing that there will be 
dramatically different statements coming out of the various 
offices?
    Mr. Shindell. Well, I think that the scientific community 
has managed to convey the general viewpoint or the mainstream 
viewpoint quite well in numerous venues already, and that has 
taken place when the President called for the National Academy 
to look at climate change after the last IPCC assessment report 
and later this week the next IPCC report will be issued. I 
think these are really authoritative reports.
    It is really, in many ways, it is a wonderful thing. If you 
had a problem and you were able not just to get the advice of 
one or two people but to get the best experts in that 
particular area from all over the world to look at the evidence 
and really present what their best evaluation is, I think you 
would be very pleased. I think we as the public would be very 
lucky to have it.
    Mr. Sali. Would it be correct to say that the opinions 
coming out of the scientific community are uniform then with 
regard to climate change or global warming?
    Mr. Shindell. Pardon?
    Mr. Sali. With regard to climate change or global warming 
or whatever you want to call it, is it your contention then 
that the opinions within the scientific community are 
unanimous?
    Mr. Shindell. Well, that would certainly depend on the 
particular details of which issue is being discussed, but in 
general there is never unanimity in science. It is a back and 
forth of ideas. Scientists, by nature, are skeptical, always 
doubting what everybody else is saying, and a consensus emerges 
over time.
    Mr. Sali. So then is it your further contention that 
somehow the minority opinions aren't worthwhile in the 
discussion, that we ought to just disregard those?
    Mr. Shindell. I don't think that those, that anybody's 
views are disregarded as long as they go through the standard 
scientific process which is peer review. So papers and 
documentation must or claims of scientific nature must be 
validated, and they must be supported, and that support has to 
be evaluated by scientists.
    Claims are submitted every once in a while. There are 
papers that come into the same journals that mainstream climate 
scientists publish in, and those are evaluated by scientists. 
The problem is that these claims don't pass muster. They don't 
have the scientific evidence to back them up, so they are not 
making it into the debate because they are not judged to be, to 
have adequate support. So those that do get published are 
included in reports like the IPCC, the National Assessment, the 
Academy reports, anything that gets through the process is 
completely validated.
    Mr. Sali. OK, so I want to make sure I am getting this now. 
Are you saying that there is no disagreement among the 
scientific community regarding global warming or climate 
change, yes or no?
    Mr. Shindell. There is no restraint?
    Mr. Sali. That there is no disagreement.
    Mr. Shindell. No, I am not saying that there is no 
disagreement. I am saying that what----
    Mr. Sali. Then are you saying that those in the minority 
view ought to be disregarded out of hand?
    Mr. Shindell. I do not think that anybody's viewpoint needs 
to be disregarded, but I would say that when the vast majority 
of the community comes down on one side and there are 
remarkably few voices on the other side that are able to 
adequately back up the claims that they make, then I think the 
conclusion is pretty clear of where our best judgment of what 
is going on lies.
    Mr. Sali. Correct me if I am wrong. Then you are saying 
that the real scientists all agree about global warming and 
climate change.
    Mr. Shindell. No. I wouldn't disparage any scientists' 
claims based on their background or what they believed. 
Somebody mentioned Richard Lindzen from MIT earlier. He is an 
eminent scientist, has done great work in the past. He is free 
to publish anything he likes as long as it gets through the 
same process that everybody else uses, and that process is the 
best way we have had for centuries now to really give science 
the rigorous evaluation it needs to determine which theories 
went out and which evidence is strong enough that we believe it 
is most likely to be true, and that has come down on the side 
of mainstream scientists.
    Mr. Waxman. Thank you, Mr. Sali. Your time has expired.
    I want to call on Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. Mr. Shindell, I am 
impressed that you have taken the time personally to come here 
today. You are here, I understand, on your own as a scientist, 
am I correct? You have no political agenda or do you?
    Mr. Shindell. That is correct.
    Mr. Tierney. That you are here as a scientist?
    Mr. Shindell. Yes. Yes, I am here to testify about climate 
science and I can relate my personal experiences. That is all.
    Mr. Tierney. Thank you.
    Mr. Piltz, when Mr. Issa was questioning, there was some 
inference, I thought, that Mr. Cooney made edits and I think he 
was implying or at least asking whether or not there was 
another round of production on that, but we have documents that 
indicate, one note directly from Mr. Cooney saying that these 
changes must be made.
    Then we have the EPA memorandum itself where the staff 
gives just three options to the administrator to choose. One is 
that you accept everything CEQ and OMB submit. The second 
option was you remove the climate section altogether. The third 
was that you go back and forth and try to reach some compromise 
which they decided would antagonize the White House and likely 
wouldn't be feasible to negotiate an agreeable text. So they 
opted for just taking the climate change out of the report.
    Do you have a different recollection of that? Was there in 
fact any additional back and forth after Mr. Cooney made his 
edits?
    Mr. Piltz. I wasn't involved in that EPA report, but 
analogously from my own experience with Climate Change Science 
Program reports, the reports would be drafted and reviewed and 
vetted and approved by a large number and layers of career 
science people and Federal science program managers. That is 
what I worked on. All of my stuff had to be approved before it 
could go forward. The White House would come in after that 
process and intervene, and it would never have to go back for 
clearance with the scientists.
    As for the Academy, the Academy of Sciences reviewed the 
program's strategic plan and in general praised it but 
criticized it for the vanishing of the National Assessment of 
Climate Change Impacts, criticized it over and over again as a 
conspicuous and unwarranted omission. The administration has 
stonewalled the Academy of Sciences since the Academy said that 
and has offered no defense, no response in its own defense.
    Mr. Tierney. Thank you.
    We have obtained, the committee has obtained some 
documents, surprisingly enough. We have obtained email 
correspondence between NOAA and White House employees, and they 
indicate quite an involvement of the White House with the press 
contacts of NOAA scientists. I think they show a kind of 
political interference that we are talking about here today, 
and it is not really the results of a couple of low level or 
over-zealous press officials but direct involvement by the 
White House. I want to go through just a couple of these emails 
if I could and then ask some of the panelists about it. All of 
these emails are from June 2005.
    The first email is from an environmental reporter. The 
reporter requests an interview with a NOAA scientist about how 
climate change science has become politicized.
    The second email, the scientists responds that the reporter 
will need to ask the NOAA press corps.
    In the third email, the NOAA press officer writes to the 
White House Council on Environmental Quality and says the press 
officer expressed concern that the reporter may fish for the 
answers she is looking for but knows that the NOAA scientist 
``knows his boundaries.'' Then the press officer asks for the 
White House instructions by the end of the day.
    The next email from the NOAA press officer states, if we 
have CEQ approval to go ahead, then that would be good.
    In another email, the NOAA press officer reports that CEQ 
and the White House Office of Science and Technology Policy 
have given the green light for the interview. The press officer 
then states, the CEQ officials want me to monitor the call and 
report back when done.
    So my question, Mr. Piltz and Mr. Shindell, are you 
surprised that the NOAA press officers were reporting back to 
the White House about the content of press interviews with 
Government climate scientists and do you think it is 
appropriate for the White House to decide whether or not a 
Government scientist can speak to the press?
    Mr. Piltz. I am not surprised. I do not think it is 
appropriate. I don't think that when the press makes an inquiry 
to the Federal Climate Change Science Program, that everything 
should have to be routed to the NOAA press office which has 
been politically compromised by the administration officials 
who are at the head of NOAA. We need a different, more 
unimpeded type of communication out of the Climate Change 
Science Program.
    Mr. Tierney. Dr. Shindell, your comments?
    Mr. Shindell. Well, I am not terribly surprised either 
because it sounds very similar to what we were told at NASA was 
happening when we were inquiring as to why we were having so 
much difficulty communicating, that this was coming from the 
White House. So it sounds very similar, and I don't think it is 
appropriate.
    Mr. Tierney. Dr. Pielke made a comment that the Office of 
Management and Budget looks at witness testimony for 
administration policy consistency and would seem to say that 
was a reason why all of this was OK. Am I wrong to think that 
there has to be some distinction between a policy and 
somebody's comment on science, their conclusions based on fact, 
Dr. Grifo?
    Mr. Pielke. Well, let me correct an impression, if I gave 
it, that it was OK. It is not OK.
    Mr. Tierney. Dr. Grifo is a ventriloquist. I am sorry. 
[Laughter.]
    Go ahead, you can answer, but I had asked Dr. Grifo the 
question. Do you want to answer it? Do you want to go ahead?
    Mr. Pielke. I am sorry. I thought you were talking to me.
    Mr. Tierney. No, but I will give you the chance if you want 
to have something to say on that.
    Mr. Pielke. No. Go ahead. My apologies.
    Mr. Tierney. OK, thank you. Dr. Grifo.
    Ms. Grifo. Thank you. I think that when you get that Ph.D., 
when you become a scientist, you do not give up your--I mean I 
think that. I know that. You don't give up your constitutional 
rights. You maintain your right as a citizen of free speech, 
and I think that is incredibly important that we remember that 
this is discussions about science.
    I would like to say that the results that we found, our 
experience with this issue is really a small part of what Mr. 
Pielke is talking about. He is talking about a very interesting 
topic which is the role of science in public policy, 
fascinating, but that is not what our program is really 
focusing on. We are looking at the science that is changed, 
that is manipulated, that is somehow touched in a way that 
alters it before it even gets into that public policy arena. 
What we are calling for is that scientists are allowed to speak 
about their scientific results and get that information out to 
the taxpayers that are paying for it, to the community at 
large, to policymakers, to everyone that needs to really 
understand this issue.
    Mr. Tierney. Is it a fair statement to----
    Mr. Waxman. Mr. Tierney.
    Mr. Tierney. Sorry?
    Mr. Waxman. Your time has expired.
    Mr. Tierney. OK, thank you, Mr. Chairman.
    Mr. Waxman. Mr. Lynch.
    Mr. Lynch. Well, thank you, Mr. Chairman.
    Earlier in this hearing, there was the suggestion of bias 
on the part of the Union of Concerned Scientists because of a 
position that the organization may or may not have taken in 
1968 on the Vietnam War. I hope I am not the only one in this 
hearing to point out the elephant in the room.
    Perhaps it is just me, but we have a situation here where 
the Bush administration chose as its Chief of Staff for the 
White House Council on Environmental Quality, a person who had 
led the oil industry's fight against limits on emissions of 
greenhouse gases. This is someone who worked for the American 
Petroleum Institute. So I scratch my head to say why. Why would 
the administration put someone who was so vehemently biased in 
an important role like this?
    Mr. Piltz, the analogy of the fox in the hen house is not 
appropriate, I believe in this case. Mr. Piltz, in your 
responsibility in your official capacity prior to resigning in 
protest, you were responsible for editing a document called Our 
Changing Planet, is that correct?
    Mr. Piltz. Yes, the annual report to Congress.
    Mr. Lynch. Right, and just to clear something up, your role 
there was to take information from 90 scientists, the reports 
of those scientists, contributions made by them and put it in a 
forum that is usable by Congress.
    Mr. Piltz. That is right and to then fact-check with them 
before it went forward.
    Mr. Lynch. So these weren't your own opinions.
    Mr. Piltz. No.
    Mr. Lynch. These were bonafide scientists with obviously 
scientific research to back up their opinions.
    Mr. Piltz. Yes.
    Mr. Lynch. Now, what I would like to do is get on the 
record. You have talked generally about what was done by Mr. 
Cooney. It is my understanding that after he resigned, he went 
back to work for Exxon Mobile. That is the information that I 
have from majority staff.
    But I would like to talk about some specific instances of 
his editing and what that might have reflected. Can you give us 
a few specific examples of edits by Mr. Cooney to this report 
to Congress?
    Mr. Piltz. Yes, I can do that and you know. If I may just 
preface that for a moment by saying that I really have tried to 
emphasize what seems to me the illegitimacy of the whole 
process by which this happened rather than arguing particular 
edits, and in many cases these hundreds of edits would just 
change a word or two, but you know what happens when you change 
``shall'' to ``may.''
    Mr. Lynch. Right.
    Mr. Piltz. But there are other places where whole chunks of 
text are deleted. For example, there is one passage where it 
came to him saying, ``warming will also cause reductions in 
mountain glaciers and advance the timing of the melt of 
mountain snow packs in polar regions. In turn, runoff rates 
will change. Flood potential will be altered in ways that are 
currently well understood. There will be significant shifts in 
the seasonality of runoff that will have serious impacts on 
native populations that rely on fishing and hunting for their 
livelihood. These changes will be further complicated by shifts 
in precipitation regimes and a possible intensification and 
increased frequency of extreme hydrological events.''
    That was deleted.
    Mr. Lynch. Now did Mr. Cooney ever give a plausible reason 
why he would extract a warning of snow melt and degradation of 
glaciers which we are seeing now? Did he ever give a plausible 
reason why he would remove that warning to Congress?
    Mr. Piltz. He called it speculative musing.
    Mr. Lynch. Speculative musings.
    Mr. Piltz. Speculative musing.
    Mr. Lynch. Are there other documents or other instances you 
can point to that would help us?
    Mr. Piltz. Yes, there was in another passage, the draft 
said, ``with continued perturbation of the Earth's radiative 
balance, climate model projects based on a range of possible 
scenarios such as a doubling of atmospheric carbon dioxide 
suggest that during the 21st century, climate changes due to 
human influences will be substantially larger than what has 
been identified up until now.''
    Mr. Lynch. Again, if I could just pause there.
    Mr. Piltz. He said delete. He said delete.
    Mr. Lynch. It sounds like you are saying that the amount of 
carbon and that measurement is very important. What was his 
response to that assumption or that projection?
    Mr. Piltz. The models don't all give the same result, so it 
is inappropriate to speak in summary terms about this type of 
outcome.
    Mr. Lynch. Mr. Chairman, thank you very much.
    Mr. Piltz. I could go on but that sort of thing.
    Mr. Waxman. Thank you, Mr. Lynch.
    Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Piltz, I would like to ask you about the National 
Assessment on Potential Consequences of Climate Variability and 
Change. Your office was involved in putting this document 
together in 2001. You have described it ``as the most 
comprehensive and authoritative scientifically based assessment 
of the potential consequences of climate change in the United 
States.''
    In it, there are projections of potential temperature 
increases and the consequences those increases would have on 
our natural environment. This is obviously an important report. 
Why haven't we heard more about it?
    Mr. Piltz. Well, it was distributed to every Member of 
Congress around the end of 2000, 2001, but very early on in 
2001, about the same time that the administration was pulling 
back from the Kyoto Protocol talks, we were directed by the 
White House Science Office to start deleting all references to 
the National Assessment, in the first instance to the annual 
report to Congress and then in the later in the strategic plan 
for the Climate Change Science Program.
    There were lawsuits filed, attempting to suppress the 
National Assessment and even remove the links to it from a 
Government Web site, although it was a taxpayer-funded study, 
filed by the Competitive Enterprise Institute which is an Exxon 
Mobile-funded policy group. The lawsuits were dismissed, in one 
case with prejudice, but the administration awarded the 
political victory to the litigants by back channel without much 
of a paper trail, instructing the Federal agencies just to stop 
using this report and going forward with any analogous 
activities.
    I think it is because this process of putting of scientists 
in direct communication with policymakers and stakeholders, 
region by region, sector by sector, generated a type of dialog 
that probably was going to lead to greater public pressure for 
taking the global warming problem seriously and doing something 
about it, and this was a type of discourse that the 
administration just did not want to see happening, in my 
judgment.
    Mr. Higgins. In this instance and others that you have 
referenced in your testimony, this is not isolated. This is 
systemic.
    Mr. Piltz. That is right. But I think that this is, I 
regard this as the central climate science scandal of the Bush 
administration because it so pervasively shut down a widespread 
process of intelligence gathering and national preparedness, 
and we now have 6 years without high level support for this 
type of process for linking science to society, and we are 
losing something because of that.
    Mr. Higgins. Do you have any evidence that policy, that 
attitude has changed?
    Mr. Piltz. No.
    Mr. Higgins. Thank you.
    Mr. Waxman. Thank you, Mr. Higgins.
    Mr. Shays.
    Mr. Shays. Thank you.
    Mr. Piltz, I want to state from the start I believe there 
is a global climate change. I believe I would call it global 
warming. I don't get too exercised over which term I use. I 
think it is manmade, and I think it stared us in the face for 
years. So I disagree with the position and policy of this 
administration, but I find myself being a little defensive 
about whether we are talking about changes in scientific 
reports or disagreements over policy. I came here thinking I 
would be more inclined to say change in scientific reports, and 
as I listen, I find myself--I don't know if I am feeling 
defensive here for the administration or just really saying let 
us be fair.
    The bottom line is you are not a scientist, correct?
    Mr. Piltz. That is right. I am not a climate scientist.
    Mr. Shays. You are not a scientist.
    Mr. Piltz. Right.
    Mr. Shays. Climate scientist or anything, you are not a 
scientist, correct?
    Mr. Piltz. No. I try to communicate with and represent the 
scientists.
    Mr. Shays. Why did you even say you are not a climate 
scientist? That gives the impression that you are a scientist. 
He is a political scientist.
    Mr. Waxman. He is a political scientist.
    Mr. Piltz. A social scientist by academic training, yes.
    Mr. Shays. I find myself being defensive because I feel 
like you are trying to give an impression that is a little 
false to me.
    There are 90 reports, 80 reports, whatever. You took these 
reports and you synthesize. That is your term. It is editing. 
You take some of what they did and leave something out, 
correct?
    Mr. Piltz. Well, yes, to try to clarify the communication, 
yes.
    Mr. Shays. You don't even have to clarify it.
    Mr. Piltz. Yes.
    Mr. Shays. Because the bottom line is you want to use the 
word, synthesize because that is a more comfortable word for 
you to use than edit. The bottom line is you edit it. You as a 
non-scientist took scientific reports and you edited them down 
to a position that you felt was respectful of what they did.
    Mr. Piltz. Yes.
    Mr. Shays. And I understand that, but you are not a 
scientist and you edited it. The bottom line is you have come 
to the conclusion that when another non-scientist took this, he 
chose to say well, which report, which scientist you are 
listening to and which you aren't. Somebody who also wasn't a 
scientist said we don't want you to make this comment and this 
description. I think they were wrong. I think that they made a 
policy decision that ultimately may even be destructful. So I 
am not even going to argue about that.
    I just don't like the fact that we are basically trying to 
give the impression that somehow you are a scientist and you 
came in and you described it all, and then this non-scientist 
disagreed with you. That is the feeling that I came with before 
this hearing. I respect you for your convictions. I respect you 
for even resigning if you think you weren't being treated 
fairly or positions were being distorted, but I still come down 
to the points I have just made.
    Now what would you like to tell me?
    Mr. Piltz. Well, first of all, I worked with, collaborated 
with the scientists and had their sign-off. I was not at war 
with the mainstream science community. That is one.
    I did not write or edit the National Climate Assessment. If 
you look at the panel of eminent people who wrote it, it is a 
very impressive group of people. It is not junk science. It is 
stuff that should not be suppressed.
    Mr. Shays. I understand that.
    Mr. Piltz. OK. I don't know. Nobody was telling the 
scientists what they could publish in the technical journals. 
This was about communication, but it wasn't just policy. It was 
spinning the scientific, the state of knowledge, statements 
about science for political effect.
    Mr. Shays. Let me ask you. Were there any scientific 
reports that you chose to not discuss because they were in 
conflict with a majority of the position? Was there any 
scientific----
    Mr. Piltz. Normally, I worked----
    Mr. Shays. Let me ask the question and be very clear. Was 
there any scientific data that you looked at that you did not 
include because it wasn't with the mainstream?
    Mr. Piltz. I don't think so. I worked with what was passed 
forward to me by the career science people.
    Mr. Shays. Well, that is important. You are saying that all 
the scientific data that was provided you, you included and 
didn't leave any out.
    Mr. Piltz. Generally speaking, there was editing for 
length, but if you look at the reports that I worked on, it is 
generally speaking, non-controversial material. It is pretty 
straightforward, descriptions of research highlights and 
program plans and so forth.
    Mr. Shays. My time has come to an end, but I just want to 
be clear on this thing. Were you selective in the scientific 
comments that you provided? Did you make any decision to 
include this scientific data and not this scientific data? That 
is really what I am asking.
    Mr. Piltz. Yes, I engaged in some editorial selection, as I 
say, but everything I did was in collaboration with the 
scientists, was reviewed, revised, edited and approved by the 
career science people before it could go forward.
    Mr. Shays. OK, thank you.
    Mr. Waxman. Thank you, Mr. Shays.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman.
    I was really surprised just how widespread this problem 
was. Last week, my office had an opportunity to speak with a 
climate scientist who is now working in Minnesota, formerly 
employed by a Federal agency and she saw the suppression of 
climate change research firsthand. In her words, ``We were told 
the answers to our analysis before we conducted our research.''
    I remember from my science classes, going through 
scientific discovery, that you set up the hypothesis and then 
you proved it right or wrong, not the other way.
    Mr. Shindell, can I ask you for some help? The committee 
staff went to some CEQ offices and they looked at some 
documentation. In one of the documents, CEQ Chief of Staff Phil 
Cooney informs Kevin O'Donovan who is in the Executive Office 
of the President that they will start to use a recent paper by 
Willie Soon and Sally Baliunas to rebut the views of the 
National Academy of Sciences Intergovernmental Panel on Climate 
Change. Now, apparently, this Soon-Baliunas paper asserts that 
the 20th century is probably not the warmest climate period of 
the last millennium. Are you familiar with this paper?
    I might be saying the one person's name wrong too. You 
might want to correct that for the record.
    Mr. Shindell. Yes, I am familiar with that.
    Ms. McCollum. Now I served on the Education Committee, and 
one of the things that the President and the administration was 
very focused on was that teachers would teach to the subject 
that they were trained in. Can you tell us about this paper?
    My understanding is that using this paper to rebut the 
National Academy and the IPCC, maybe these weren't the best 
scientists to do that.
    Mr. Shindell. This was an interesting paper, and I think it 
demonstrates the point that came up in one of the other 
Member's questioning about what is allowed. Really, whatever 
stands up to scientific scrutiny is allowed, and it is not 
dependent on the views of the scientist.
    So Soon and Baliunas are both astronomers. They are not 
climate scientists, but that is OK, as long as their work 
stands up. Basically, what that paper was, there is no original 
research. It is instead a survey of other climate scientists' 
work where they basically took all of the uncertainties and 
caveats, things that were not included in the studies, compiled 
them and said that then, given that there were so many 
uncertainties and things that were not fully understood, we 
could not say much of anything about climate change. However, 
that is in complete contrast to the views of nearly every 
expert in climate science.
    So I think that is not at all representative, and I would 
not say that one alternative paper undermines the thousands of 
papers that go into a document like the IPCC report.
    Ms. McCollum. They are scientists. They are entitled to 
their own opinion, but this is not their field of expertise, 
climate change.
    Mr. Shindell. That is correct.
    Ms. McCollum. It is my understanding that the paper led to 
a lot of controversy. Press reports indicated that the study 
was funded by the oil industry and that the editor in chief of 
the journal resigned when the owners of the journal refused to 
allow him to publish an editorial saying that the paper in fact 
was flawed. Is that your understanding?
    Mr. Shindell. Yes, I believe that is correct.
    Ms. McCollum. One of the more troubling aspects of this 
document seems to be that it reflects on what amount of 
strategy decision that the White House had in part, in fact, 
that the White House was going to use this study to rebut the 
prevailing scientific reviews. Do you find this troubling to 
you as a scientist to have a person who is a scientist but in a 
totally different field, not an expert in what you are working 
on, be given the same weight and credibility in rebutting what 
you are saying rather than a peer in the same field of science?
    Mr. Shindell. I do find that quite troubling. I used the 
analogy in my testimony of a patient having to trust their 
doctor, and this would be tantamount to you having a heart 
condition and getting repots from heart experts all over the 
world, giving you their best opinion of all the medical data, 
and then somebody coming on and saying, why don't you look at 
what these skin doctors have to say. They are a couple of 
people, you know. I think let us throw out this assessment by 
all the world's experts and let us take this one instead.
    I think it would be very foolish for anybody to do such a 
thing.
    Ms. McCollum. I thank you for that.
    I am very concerned in looking on page 21 of the document, 
Atmospher of Pressure, ``I have perceived in others or 
personally experienced changes and edits during the review that 
changed the meaning''--that changed the meaning--``of 
scientific findings.''
    Further on the page, it says, ``Statements by officials at 
my agency that misrepresented''--misrepresented--``a 
scientist's finding.''
    I can look at the color of your blue tie, sir, and I can 
say it is robin's egg blue or I can say it is baby blue. But a 
scientist could look at that tie and tell me exactly what color 
it is by science, and that is indisputable. The other two items 
are my opinion, but the other one is science.
    I thank you so much, Mr. Shindell. What would you say about 
the credibility?
    Mr. Waxman. The gentlelady's time has expired.
    Mr. Shindell. I would just say that is an interesting 
counterpoint to some of the cases that were raised before where 
there were synthesis documents. The cases where there was 
interference at my agency were specific scientific reports. 
There was no policy involved. They were simply this is the 
result of a particular set of observations for a particular 
modeling study, and those were nevertheless edited when they 
showed the dangers of climate change.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Waxman. Thank you.
    Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    I have just a couple of questions that are interrelated. 
The first is, and this may sound a little naive but what I am 
trying to get to is your understanding. Mr. Piltz, I think you 
are in the best position to address this, your understanding of 
what was motivating inside the CEQ, inside the White House.
    I guess the range of options could include that you had a 
small handful of people that had sort of been given license 
within this office to exercise their own personal ideological 
political perspective and that is what they were doing and/or 
they were responding, and this would be sinister, to pressure 
from external influences and/or that they were carrying out a 
fairly specific and focused policy agenda coming even from 
higher levels. Based on your observation of this conduct that 
was occurring in the CEQ, can you speak to that at all?
    Mr. Piltz. Well, I wasn't in the room with them while that 
was being worked out, so I have to analyze it from a step back, 
but as a political scientist, I would say that there are 
elements of all three of those to explain this.
    I think the administration came in with predetermined 
political agenda on greenhouse gas emissions and the global 
warming problem that it was not going to support a regulatory 
policy. The willingness to allow political operatives to engage 
in misrepresenting the intelligence on the science side, the 
spinning of the politics back into the science communication is 
a problem. I think that they were representing particular 
stakeholder interests, political, particularly in conjunction 
with political allies. Also, it just seemed to me that they 
brought with them some kind of animus toward proactive 
government problem-solving and preparedness to deal with 
consequences of decisions or not making decisions and have left 
us in this position.
    So somehow this global, the way the global warming issue 
has been handled is somehow indicative to me of a modus 
operandi that we have seen across a range of issues, and this 
is the global warming piece of it.
    Mr. Sarbanes. Right.
    Mr. Piltz. Did that make any sense.
    Mr. Sarbanes. It does. I think you are saying it is 
symptomatic of an attitude that cut across other ways that the 
administration has handled things.
    Let me ask you this. I am trying to understand the purpose 
of a retrospective like this, I think is to inform what goes 
forward. I am struggling to understand for myself the point at 
which one can say that the scientific inquiry for the moment is 
concluded. I understand this is ongoing and it changes every 
day but where you feel comfortable as a scientific community 
coming forward and saying this is what we know and it has 
reached the point where the political aspect of it ought to be 
kept at bay because people will say, well, we are just trying 
to bring more balance, we are just trying to complete the 
picture.
    So is it at the point where the National Academy of 
Sciences, for example, says there is a strong, almost 
unprecedented consensus on this issue, that one can feel 
comfortable that this represents good science and we ought to 
accept it as such? Where is that line?
    Mr. Piltz. You can't. You can't try to make the science 
community say that they are absolutely certain about something. 
When they say something is very likely, you ought to take it 
seriously. The science community has a lot of integrity and 
owning up to their own uncertainties and they are always asking 
the next question, but you always make your policy decisions in 
the face of some uncertainty about the implications. What 
happens is people with political agendas come in, who have a 
predatory relationship to that uncertainty language and they 
use it for reason in a way that is different from the way the 
scientific community uses it. So you know you will not get them 
to say we are 100 percent certain.
    I always cringe when somebody says the science is in. It is 
time for action.
    I mean we have a National research program that is our 
basic intelligence capability for understanding what we are 
doing to Planet Earth. That needs to be supported. It has 
always had strong bipartisan support regardless of political 
debates about the policy implications, and that scientific 
research needs to go on. But while it is addressing whatever 
questions need to be addressed, policymaking has to proceed in 
tandem with that, not at the end of some science process. The 
two have an ongoing interplay.
    Mr. Sarbanes. That is a powerful phrase, predatory 
relationship to the uncertainty of the science. I will use that 
if you give me permission.
    Thank you very much.
    Mr. Waxman. Thank you, Mr. Sarbanes.
    Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman.
    Dr. Pielke, I noticed in your written testimony, you made a 
claim that the memo that was prepared by the committee staff 
for this hearing is ``exactly the same sort of thing that we 
have seen with heavy-handed Bush administration information 
strategies,'' and I take the charge that you make very 
seriously. You are, if I understand it, essentially accusing 
the committee of the conduct that it is investigating.
    You took specific offense with the memo's discussion of the 
state of science regarding the connections between global 
warming and hurricanes, where the memo notes, recently 
published studies have suggested that the impacts of global 
warming include increases in the intensity of hurricanes and 
tropical storms.
    So, taking this seriously, we asked the committee staff to 
contact these leading researchers to followup to see if there 
is anything we should be concerned with in that memo. Dr. 
Judith Curry, as you know, a leading researcher, told us that 
all the research scientists working in the area of hurricanes 
agree that average hurricane intensity will increase with 
increasing tropical sea surface temperature. Theory, models, 
observations all support this increase. She tells us that the 
recent research indicates an impact of global warming is more 
intense hurricanes. The current debate and lack of consensus is 
about the magnitude, she says, of the increased intensity, not 
its existence.
    Dr. Michael Mann, also a prominent researcher, tells us 
that in his view, you have misinterpreted the WMO report in 
arguing that it somehow contradicts information provided in the 
scientific background of the hearing memo that you had a chance 
to review. He says, the current state of play with the science 
on this is accurately summarized in the hearing memo.
    Now, given all the testimony that we have received today, I 
am wondering whether you stand by your statement which is 
essentially a challenge to the memo of this committee. We have 
heard evidence of hundreds of incidents of political 
interference. We have heard very direct testimony from some of 
the people here and others that the White House did edit 
documents to introduce doubt where essentially no doubt 
existed. We have heard scientists' contacts with the press were 
in fact being monitored by the White House.
    In light of today's testimony and the information provided 
to the committee by Drs. Curry and Mann, is it still your 
belief that the committee's hearing memo is, ``exactly the same 
sort of thing'' the Bush administration has done?
    Mr. Pielke. I thank you for the opportunity to clarify, and 
I did say the word, in microcosm. This is, I think, and I will 
stand by exactly what I said, and I am happy to talk about the 
science and impacts of hurricanes as long as you would like 
because it is an area I have been researching for about 15 
years. The memo includes the statement, recently published 
studies have suggested that the impacts of global warming 
include increases, and it cites three papers that look 
retrospectively back in time. So it is not talking about 
projections in the future. So the statement by Dr. Judy Curry 
who is a great scientist, who I have a lot of respect for, 
isn't on point here.
    I want to make a point that I hope everyone recognizes. The 
same dynamic that we just saw, talking about the Soon-Baliunas 
paper as the one outlier contradicting the consensus. We see 
this on the exact other side. Now there was 120 scientists that 
includes Kerry Emmanuel and Greg Holland who were co-authors of 
those three papers cited here, came up with a consensus 
statement on hurricanes and climate change. That is analogous 
to the IPCC. Subsequently, the American Meteorological Society 
has endorsed that statement.
    Now I am not a climate scientist and just like I accept the 
consensus of the IPCC, I am compelled to accept the consensus 
of the hurricane community. Now it is very easy to pick out a 
Soon and Baliunas paper or selectively email a scientist and 
say, what is your view?
    I respect Dr. Mann and Dr. Curry have their views about 
what the statement says, but I am absolutely 100 percent 
certain that the statement that is in your background memo does 
not faithfully represent the science. It selects among the 
science perspectives, and that is inevitable, and we have to 
recognize that, and no one is immune from it. It doesn't excuse 
the Bush administration from their actions, of course, but let 
us not pretend that somehow we can separate out scientific 
truth from political preferences. The reality is they are 
always going to be intermixed.
    Mr. Welch. The memo, the committee memo, states very 
specifically that the evidence suggests that link.
    Mr. Pielke. That is true.
    Mr. Welch. The evidence is there.
    Mr. Pielke. Yes, it is there.
    Mr. Welch. You are now taking the leap to suggest that the 
committee memo is similar to the conduct of interfering with 
scientific debate that we have heard testimony about from these 
scientists.
    Mr. Pielke. In microcosm. In microcosm, it shows how easy 
and simple it is to selectively report scientific information 
to favor a particular agenda, absolutely. The statement in 
there is accurate. It is just like what we have heard about 
some of the changes. The statement that Mr. Cooney made, some 
them were judged to be accurate but misleading. This is exactly 
the same sort of thing.
    Mr. Welch. Thank you very much.
    I wonder, Dr. Grifo, if you could respond if you have any 
different point of view than Dr. Pielke.
    Ms. Grifo. I would just respond by saying that, you know, 
peer review is the gold standard and that this is something 
that, you know, science will resolve. Ultimately, you know, as 
the scientific process continues to study hurricane intensity 
and what that means and what it doesn't mean, you know, we 
still have all these other lines of evidence that really point 
us in the direction that we have all been talking about here 
today which is that this is a huge and serious problem and we 
need to get on it.
    Mr. Waxman. Mr. Welch, will you yield to me?
    Mr. Welch. I yield to the chairman, yes. Thank you.
    Mr. Waxman. Doctor, you are a doctor, but you are not a 
scientist. You are a political scientist.
    Mr. Pielke. I am a political scientist. That is accurate.
    Mr. Waxman. And you said you are absolutely certain that 
you are right on this issue and that Dr. Curry and Dr. Mann are 
wrong in their statement. Isn't that quite a statement for you 
to make? No scientist here has been willing to make any 
statement that there is absolute certainty because the process 
of science continues to evaluate things.
    Dr. Shindell, you are familiar with Dr. Curry and Dr. Mann, 
is that correct? Dr. Shindell, are you familiar with those two?
    Mr. Shindell. Yes.
    Mr. Waxman. Are they somewhat isolated in the field with 
their own theories at odds with the majority of scientists?
    Mr. Shindell. No. They are quite within the mainstream.
    Mr. Waxman. In fact, isn't Dr. Mann one of the leading 
scientists in global warming issues?
    Mr. Shindell. Yes. Yes, he is.
    Mr. Waxman. And Dr. Curry as well?
    Mr. Shindell. Yes.
    Mr. Waxman. So I am just wondering whether we should 
believe them or the certainty of Dr. Pielke that they are 
wrong.
    Mr. Pielke. May I clarify, Mr. Waxman?
    Mr. Waxman. Yes, please.
    Mr. Pielke. My certainty is as to what the WMO hurricane 
consensus says. Let me say I have led two inter-disciplinary 
papers including climate scientists, peer-reviewed, reviewing 
the science of hurricanes and climate change that were 
published in the Bulletin of the American Meteorological 
Society in 2005 and 2006, and the summary that is in those 
papers has stood up to the WMO and AMS consensus points. So it 
is fair to say your background means that you can't speak on 
this topic and so on, but do recognize that scholars today work 
on inter-disciplinary teams and there is literature that Dr. 
Shindell would accept as being in the mainstream peer-reviewed 
journals.
    Mr. Waxman. I don't dispute your ability to study the field 
and make comments on it except when we say that evidence 
suggests something which seems to be backed by Dr. Mann and Dr. 
Curry for you to say they are wrong. We didn't reach the 
conclusion. We said evidence suggests this.
    Mr. Pielke. Let me clarify again. I did not say that they 
are wrong. I said that their views are not consistent with the 
mainstream consensus in the community. I am 100 percent sure of 
that statement.
    Mr. Waxman. Do you know whether that is true, Dr. Shindell?
    Mr. Shindell. I believe that their views are consistent 
with the mainstream consensus, and I think that we are having a 
slight semantic argument over what the mainstream consensus is. 
Is it that hurricanes have increased in severity in the past? 
Will they increase in the future? I think it is an interesting 
issue, this one, because unlike some of the other aspects of 
global warming that are better understood, there is some 
legitimate controversy, and so it can lead to these kinds of 
discussions.
    But one of the interesting things about uncertainty, there 
are two points. One is that scientists are very open about the 
uncertainty and that is what leads to these kinds of statements 
saying yes, we don't know everything about it.
    Another is that while we have been looking at model 
projections to inform us about the kind of world we are likely 
to live in, when you look at these studies of hurricanes, they 
are suggesting that maybe the models are drastically under-
predicting what is likely to happen. These studies that are 
referred to in your statement from this committee are showing 
much, much stronger increases than anybody's model guess.
    So, yes, there is uncertainty, but that cuts both ways. It 
might mean we don't understand everything, and so it could be 
better. It might also mean that things might end up far worse 
than what we are saying they are likely to be.
    Mr. Waxman. Thank you.
    Mr. Welch, do you want to conclude your questioning?
    Mr. Welch. I will just finish by going back to Dr. Pielke.
    What I understand is you are acknowledging that the 
committee memo does cite mainstream science, correct?
    Mr. Pielke. Absolutely, it does.
    Mr. Welch. What I want to know, after we have been through 
this, is this, are you standing by your position that this memo 
that cites mainstream science is exactly the same kind of 
conduct as what we have heard occurred in the Bush 
administration where there was direct interference with 
independent conclusions reached by scientists following the 
scientific method?
    Mr. Pielke. I will repeat exactly what I said in my written 
testimony. In microcosm, this shows how in political settings, 
which the preparation of Government reports is, how easy, 
enticing it is to selectively present scientific results to 
buttress a political perspective.
    Mr. Welch. Would you say there is a difference between 
citing mainstream science in a public memo as opposed to 
altering science as presented to a PR person?
    Mr. Pielke. Not much difference, no.
    Mr. Waxman. The gentleman's time has expired.
    Mr. Yarmuth.
    Mr. Welch. Thank you.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I would stipulate for the record that I am not a scientist 
either, but I am journalist by background and an editor, so I 
would like to pursue a line of questioning that Mr. Shays had 
with Mr. Piltz.
    When I was editing stories, I basically looked for two 
things. One was whether the message was communicated clearly 
and second whether claims made in the article or the document 
were backed up by any evidence. If I saw something that I 
suspected might have been speculative musing or something of 
that nature, I would have gone to the author and asked the 
author to show me the documentation or the supporting or the 
interviews or whatever sources he or she might have had for 
writing that.
    I am taking it from this discussion that Mr. Cooney made no 
particular effort to determine whether in fact there was 
something substantive behind the portions of those reports that 
he excised.
    Mr. Piltz. That is correct.
    Mr. Yarmuth. So, essentially, what he did was interpose 
judgment for the scientists who wrote the report.
    Mr. Piltz. For the career science people, yes.
    Mr. Yarmuth. Dr. Grifo, you have a report coming out today, 
and it includes some extensive interviews with about 40 
Government global warming scientists. I would like to focus on 
one. Dr. Pieter Tans, who was the Chief Scientist for NOAA's 
Global Monitoring Division, was asked back in October 2004 to 
do a press conference with the BBC or an interview with the 
BBC. That was a month before the Presidential election. How 
long did it take for Dr. Tans to receive approval to give that 
interview?
    Ms. Grifo. The interviews were not approved until February 
2005.
    Mr. Yarmuth. 2005, so it took 4 months to approve the 
interviews.
    Ms. Grifo. Well, that was the approval. They didn't 
actually take place until even a month after that.
    Mr. Yarmuth. Is that a normal cycle for approval of an 
interview from a media outlet? My experience would say that 
would be an extraordinarily long period of time.
    Ms. Grifo. That would be consistent with my experience, 
yes.
    Mr. Yarmuth. Just in terms of other interviews that 
scientists might have given, and any of you can answer, would 
it take 4 months for even a Government agency scientist to 
agree to do an interview or turn down an interview?
    Ms. Grifo. To me or to them?
    Mr. Yarmuth. Whomever.
    Mr. Shindell. We had cases at NASA where a request would 
come in, say from CNN, to talk about the latest global 
temperature changes. Our public affairs officer would relay 
that to us and by the time we got back, they would say 
headquarters has already told them that nobody is available and 
there will not be such an interview. So those things did 
happen.
    Mr. Yarmuth. Was there--oh, I am sorry.
    Ms. Grifo. I just was letting him go first. Can I just hop 
in, back in?
    Mr. Yarmuth. Sure.
    Ms. Grifo. I mean our report indicates a large number of 
those instances happening. I mean there is a number that are 
described, anonymous scientists from NOAA, Christopher Milly, 
Dr. Shindell's case, Richard Weatherall. There are many of 
these that have been documented, so it is not an isolated 
incident.
    Mr. Yarmuth. Were there conditions placed on the approval 
of the interview with Dr. Tans?
    Ms. Grifo. Just there was a minder. There was a public 
affairs officer, and in fact he flew across the country and 
even to Mauna Loa, Hawaii in order to be there for those 
interviews.
    Mr. Yarmuth. Did he serve any useful purpose as far as you 
can tell? Is that standard operating procedure when a scientist 
is interviewed?
    Ms. Grifo. I think what is important here is that 
scientists coordinate with the agency, that they let the agency 
know an interview is taking place and that they report back on 
this interview after the interview has taken place. That is 
what the critical role and the relationship should be between a 
scientist and a public affairs officer.
    Mr. Yarmuth. Basically, the taxpayers paid to send someone 
along over the global to just watch Peter Tans give an 
interview.
    Ms. Grifo. Yes, sir, they did.
    Mr. Yarmuth. That is all I have. I yield back, Mr. 
Chairman.
    Mr. Waxman. Thank you very much, Mr. Yarmuth.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Waxman. You are recognized for a second round.
    Mr. Issa. Thank you and thank you so much for calling this 
hearing. As I mentioned as a sidebar, this is at least two 
great hearings wrapped into one, perhaps three. I will try to 
get through just a couple more points.
    Mr. Piltz, my understanding is that you were a strong 
supporter, remain a strong supporter of the 2000 National 
Assessment on Climate Change.
    Mr. Piltz. Yes.
    Mr. Issa. Both you and Dr. Pielke, I am sure are familiar 
with James Hansen.
    Mr. Piltz. Yes.
    Mr. Issa. Also, well-respected, and my understanding is he 
vehemently disagreed with the assessments, felt that the models 
were flawed, leading to overly pessimistic views and said so in 
a number of writings. Is that roughly correct?
    Mr. Piltz. I am not aware of Dr. Hansen's specific comments 
on the National Assessment, but I think that every scientist 
had an individual opinion about how he might have done it 
better.
    Mr. Issa. Dr. Pielke, are you familiar with that?
    Mr. Pielke. I am not familiar with that.
    Mr. Issa. He said, ``The predicted 1 percent per year or 2 
to 3 full 21st century increases in CO<INF>2</INF> assumed in 
the study may be pessimistic.'' Then he goes on and does a 
little more than may, but it was interesting that he used may, 
something that sometimes people object to. That study turned 
into a lawsuit and the Government, this Clinton administration 
assessment which you support, which James Hansen had doubts 
about, in fact, turned out by an admission of the 
administration to be flawed and is no longer in widespread use.
    In a nutshell, you end up with you can have the Government 
do work. The science can have problems in the model. It can be 
questioned by a minority of the science community. It can go 
through, in this case, a lawsuit, and an administration can 
recognize that in fact some of the assumptions or models were 
flawed and therefore overly pessimistic. That is the assessment 
I find on that, but I want to continue on to Mr. Piltz a little 
bit because certainly Mr. Cooney deserves----
    Mr. Piltz. If I could respond to that, it would be----
    Mr. Issa. We will.
    He deserves to be considered as to whether his edits were 
proper or not. In your resignation letter from June 1, 2005, 
you did a fairly extensive memo, and I appreciate that, but one 
of the things you said on page 11, speaking of Mr. Cooney's 
edits, most of the more problematic CEQ comments were not 
adopted. Some were and the damage to the document was 
significantly limited.
    Now earlier I asked you about whether or not there was 
further review. If I read this correctly and your own 
statements, what we really have is we have an editor editing 
your edit and then his edits being further edited, and each of 
you, I am sure, like the pride of an author, would say I didn't 
like his edits.
    I will mention for the record that I once had dinner with 
Francis Ford Coppola, and it took the entire dinner for him to 
tell me how rotten a job they did screwing up his great work on 
the Godfather series and each of them would have been better if 
they had just left it alone. You don't even want to get into 
his idea of colorization of old films.
    I think the point is we are having an argument over edit, 
edit, edit when in fact science is, by definition, not perfect 
or infallible, and certainly the 2000 National Assessment 
proves that you can have bad assumptions even in a Government 
document.
    Back to Dr. Grifo--thank you--your study, this 19 percent 
response rate, doesn't it fly in the face of OMB's own 
requirement for an 80 percent response in fact to have a study 
be considered to be reasonable survey results? I will just note 
that a study done at the request of the Urban Institute and the 
United Way in June 2003 for non-profits found in fact that low 
rate of return raises concerns about potentially serious, non-
responsive bias. Claims from a survey project with low return 
rates are frequently viewed with skepticism and even rejected 
by the scholarly community.
    Isn't it fair to say that your organization, 
notwithstanding the question of the Vietnam War, if you will, 
that is a little old history, but your organization which 
released a major study just today, that had been embargoed, 
that reaches a strong position on global warming is in fact an 
advocacy group, and moreover the Pew Charitable Trust, which I 
respect a great deal, gave you $1 million to promote getting 
the Nation's commitment to energy efficiency and renewable 
energy as a corner store policy?
    Isn't fair to say that your organization is in fact an 
advocacy group and that when we are sitting here today, what we 
are seeing is several advocates of positions against a question 
of whether the administration has a right to balance that 
advocacy?
    Mr. Waxman. The gentleman's time has expired. I want to 
give Dr. Grifo a chance to respond and Mr. Piltz a chance to 
respond as well.
    Ms. Grifo. Thank you very much. Yes, sir, we are advocates 
for good science. That is what we are advocates for, for 
getting that information out into the public realm. 
Furthermore, I would say that all those other surveys that you 
have mentioned did not have the primary consideration that we 
did which was protecting the anonymity of the scientists that 
we surveyed. That was paramount to us. That was absolutely 
incredibly important because of the chilling effect that we are 
all here to discuss.
    Mr. Waxman. Mr. Piltz, you seem to want to respond to Mr. 
Issa's question.
    Mr. Piltz. Well, first of all, on the National Assessment 
briefly, it was not a Clinton report. It was prepared by an 
independent panel of eminent scientists and handed to the 
Government without any Government vetting.
    The Bush administration has never said anything about to 
criticize the National Assessment, never given any intellectual 
or scientific rationale for what, if anything, is wrong with 
it. They just deep-sixed it.
    The National Academy of Sciences has praised it as a 
seminal, important, credible, exemplary study. That is the 
bottom line on that.
    As for Mr. Cooney's edits, in one report in the final 
technical review draft of the Climate Change Program's 
Strategic Plan, at the 12th hour, he came in and proposed more 
than 400 text edits in the document that in the aggregate would 
have pervasively changed the tone of the document to 
manufacture an enhanced sense of uncertainty. It caused so much 
consternation on the inside that there was a pushback from the 
director of the Climate Change Science Program, and a solution 
was negotiated at the political level that a lot of these edits 
would not be taken. However, the banishing of the National 
Assessment remained.
    Mr. Waxman. Thank you.
    Mr. Issa. Mr. Chairman, I would ask unanimous consent to 
submit for the record the proof that the Clinton administration 
did in fact settle and that the 2000 assessment has been 
disregarded as the result of flaws.
    Mr. Piltz. The Bush administration settled.
    Mr. Waxman. You want to submit?
    Mr. Issa. I will submit it for the record.
    Mr. Waxman. You will submit some documents for the record?
    Mr. Issa. I will submit the documentation. I do believe it 
is the Clinton administration. I will submit it for the record.
    Mr. Waxman. We will be pleased to receive whatever 
documents you wish to submit for the record.
    Mr. Issa. Thank you.
    Mr. Waxman. Then we will make our own judgment whether it 
proves something or not. Thank you.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Dr. Shindell, I just wanted to go over another specific 
example of political interference. Now you have been at NASA's 
Goddard Institute for Space Studies for 12 years, is that 
correct?
    Mr. Shindell. Yes.
    Mr. Lynch. You were there in the late nineties.
    Mr. Shindell. That is correct.
    Mr. Lynch. When you completed important studies in the late 
nineties, did you submit press releases for distribution?
    Mr. Shindell. Yes, I did many times.
    Mr. Lynch. Did you have any problems such as has been 
described here earlier in the hearing, any problems in terms of 
editing of those press releases?
    Mr. Shindell. On the contrary, I found the comments from 
headquarters and the press corps to be helpful in clarifying 
the results.
    Mr. Lynch. In September 2004, you submitted a press release 
to announce the findings of your new study on Antarctica. You 
suggested a title for the press release, ``Cool Antarctica May 
Warm Rapidly This Century, Study Finds.''
    First of all, can I ask you, was this a significant study?
    Mr. Shindell. Well, as I mentioned in my oral testimony, I 
thought it was significant, both because this was an 
unexplained feature of the world's temperature trends, why 
Antarctica was going the other way from the rest of the planet, 
and it is an area we worry about quite a lot for possibility of 
contributing to sea level rise as the ice sheets melt. So in 
that yes, it was.
    Mr. Lynch. Now, can I ask you, was your press release 
accepted?
    Mr. Shindell. No. It was delayed several times and then 
came back altered, and the title that we had, as you mentioned 
that we had suggested was especially objected to. So we worked 
for some time on that and came up with another title which we 
thought might be more palatable which was NASA Scientists 
Expect Temperature Flip-Flop in the Antarctic. That, too, was 
rejected.
    After more complaints and questions as to who was editing 
these things without ever getting a direct response, word came 
back from above that the title should be Scientists Study 
Antarctic Climate Change, with no possibility of revision. So, 
as you might imagine, that doesn't really attract the attention 
of most people. The public, you as Members of Congress are not 
out there reading geophysical research letters. If a study says 
we look at climate change in Antarctica, it drew very little 
media interest. It didn't get out into the public debate, and I 
think that is harmful to informing the public debate about 
global warming.
    Mr. Lynch. Right, I just want to go back again. The phrase, 
rapid warming, was deleted.
    Mr. Shindell. Yes.
    Mr. Lynch. Instead, it just indicates Scientists Predict 
Antarctic Climate Changes, a rather neutral, rather vague 
title. Were you uncomfortable with that title?
    Mr. Shindell. I was not comfortable with that. I thought it 
was so watered down that it would be of little interest to 
anybody after all the time and effort we went to, to make this 
release and communicate the results that would do a very poor 
job of doing so. But when I objected, there was no response, 
and I was told that it had to be that title. Indeed, there was 
little media reporting.
    Mr. Lynch. Let me ask you quickly. Press interviews, what 
was the procedure under the Clinton administration in the late 
nineties for press interviews?
    Mr. Shindell. The public affairs office worked to 
facilitate our contacts with the media, and when inquiries came 
into public affairs, they would simply relay them to us and 
say, do you have a chance to talk to this person? Go ahead. 
Contact them.
    Mr. Lynch. What was the most recent process under the Bush 
administration?
    Mr. Shindell. In the fall of 2004, that was when there was 
imposed this rule that press officers or minders, if you will, 
had to be present supposedly for our benefit to protect us from 
being misquoted, although there was no feeling within the 
agency that this was actually a problem.
    Mr. Lynch. OK, I will yield back.
    Mr. Shindell. Instead, it had a chilling effect.
    Mr. Lynch. Thank you.
    Mr. Waxman. The gentleman's time has expired.
    Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    I just had a few questions for Dr. Grifo.
    We have been talking today obviously about the very unique 
question of global warming and the impact of political 
decisions made in Washington upon scientific opinion, but I 
think we might be remiss in leaving this hearing if we didn't 
admit that there is a creep of political influence into other 
areas of this administration as well.
    We certainly understand the long term ramifications of 
global warming on the health of our Nation, but there are more 
potentially immediate consequences of the political decisions 
made within this administration when it comes to the Food and 
Drug Administration. I understand that the Union of Concerned 
Scientists have done some work into surveying the opinions of 
those working in and around the Food and Drug Administration, 
and I might just ask you a few questions about some of your 
work there to maybe educate our panel and Congress on some of 
the ancillary implications beyond the subject of global 
warming.
    When you did this survey of FDA scientists, it would be 
interesting to know if you heard from any of those scientists 
whether they were asked for non-scientific reasons to 
inappropriately exclude or alter any technical information or 
conclusions in any of the documents that the FDA was providing 
to Congress or to other agencies. Did you get a sense from FDA 
scientists whether they were asked, in essence, to censure the 
information they provided for those documents?
    Ms. Grifo. Yes, sir, and in answer to the actual survey 
instrument that was mailed to them anonymously again with an 
anonymous return, and I would also say that the FDA scientists 
came back to us with 69 pages of essays, 69 pages of their own 
words, irrespective of the questions we asked. Their hearts 
have really been poured out into that document, and that is on 
our Web site, and we can make that available.
    But I would say that, you know, 145 FDA scientists had been 
asked to alter info or conclusions for non-scientific reasons, 
and I think even more frightening is that 461 of them knew of 
cases where commercial interests had inappropriately intruded 
into that process. These are the decisions that profoundly and 
very directly affect our health and the health of our children.
    I would just add that I had a personal experience with 
Ketek, a drug that really never should have come onto the 
market and because of the manipulation of the science, did. In 
fact, this was a drug that caused profound liver failure and 
was prescribed to my son for an infected hangnail. I mean this 
is the risk that we encounter with this kind of interference.
    Mr. Murphy. You gave sort of the gross numbers of those 
that responded. What percentages of the respondents are you 
talking about that either believed that they were forced into 
making decisions for commercial rather than scientific reasons 
or even felt pressure?
    I mean to the extent that people actually changed their 
input or changed the recommendations they were making, but then 
there is also simply the issue of those in the agency that felt 
that they were pressured to make those different decisions. Do 
you have a sense of what percentage of scientists answered in 
the affirmative to those types of questions?
    Ms. Grifo. Yes, and again we went to great lengths to 
determine who were the scientists and made sure that they were 
the respondents. We had a high level of Ph.D.s, a high level of 
high GS scientists responding and a very high level of 10 and 
15 years at the agency. So these were the cream of the crop, if 
you will. Sixty percent knew of cases where commercial 
interests inappropriately induced or attempted to induce 
changes to FDA decisions or actions, and again 61 percent of 
all respondents knew of cases of inappropriate political 
interference.
    Mr. Murphy. In your experience of surveying different 
agencies and departments of the administration, how does the 
concern of those scientists and the pressure put upon the FDA 
officials and scientists, how does that compare with some of 
the other issues that we have been talking about today or other 
experiences that you have heard from other departments and 
agencies within the administration?
    Ms. Grifo. I think one of the most frightening ones has to 
do with fear of retaliation, that we had 396 scientists at the 
Food and Drug Administration who could not publicly express 
concerns about public health without fear of retaliation and 
that 357 of them, that would be 36 percent of our respondents, 
could not even express those concerns within the agency.
    As I started off in my testimony, the total number from 
across the Federal Government and the number was, when we look 
at retaliation, 699 scientists. That is 39 percent across 9 
agencies have reported that they fear retaliation for openly 
expressing their concerns about the mission-driven work of 
their agencies.
    Mr. Waxman. Thank you, Mr. Murphy. Your time has expired.
    Mr. Murphy. Thank you very much.
    Mr. Waxman. Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman.
    I am very concerned that even if the White House and 
administration political appointees can't edit every scientific 
report and press release, they are sending a strong signal to 
Government scientists that the threat of global warming should 
be played down and science should get as little attention as 
possible. Because of that, good scientists who do important 
research may worry about voicing their concerns or publicizing 
their findings.
    Mr. Piltz, I am going to start with you. Are you personally 
worried about the chilling effect or self-censorship that this 
environment breeds and if so, can you share with us how that 
manifests itself in the way you and your colleagues do your 
work?
    Mr. Piltz. That is an excellent question, and I think it is 
a key point really and one I haven't had a chance to emphasize. 
I know I cited the marked-up documents that came fairly early 
on as graphic illustrations of a pervasive pattern, but you 
know once this heavy-handed censorship signal is sent, the 
career people in the Federal agencies, they defer to the White 
House. They have their antenna out.
    What could be career limiting? Don't rock the boat. They 
are great public servants, but what sets in if you know that 
what you are writing has to go through a White House clearance 
before it can be published, people start writing for the 
clearance, toning down, steering away from and kind of 
anticipatory self-censorship sets in among the career Federal 
program managers.
    Maybe not on--the FDA scientists and some of the other 
agencies, their scientific conclusions feed directly into 
regulatory decisionmaking. So the pressure is right on their 
scientific conclusions. Since we don't really have a regulatory 
regime on climate change, the interference tends to be more 
with the communication that might influence the way people 
think about the issue, but it is the same. It is an analogous 
dynamic. People censor themselves, and there is a chilling 
effect, certainly.
    Mr. Braley. Thank you.
    Dr. Shindell, what about you? Have you seen or heard about 
any of your colleagues responding to expected political 
pressure by censoring themselves or just giving up on a press 
release or a press contact?
    Mr. Shindell. Yes, both of these things, I think that 
people are aware that releases would be delayed so long if they 
tried to talk about global warming and climate change that it 
was left out. I have seen people talk much more favorably about 
the environment at universities now where they encourage 
outreach as opposed to what is going on in the Federal 
Government.
    Mr. Braley. Thank you.
    Dr. Grifo, the Union of Concerned Scientists and the 
Government Accountability Project interviewed 40 Government 
climate scientists. Were any of these scientists worried about 
the administration learning of their conversations with you?
    Ms. Grifo. Yes, and in fact the number that the study began 
with was much higher. It was more than 150, almost 200 
scientists, and out of that large group that were contacted for 
the study, we really only ended up with 5 or 6 that were 
willing to go on the record, a significant drop, obviously 
because of their fear of retaliation or other problems.
    Mr. Braley. I am going to offer this question to the entire 
panel. As someone who started out in a very challenging 
engineering curriculum and later switched to a political 
science degree, one of the things I know is that the heavy 
emphasis on math and science often times makes it impractical 
to educate scientists on some of the constitutional protections 
they have in terms of freedom of speech, freedom from 
interference with voicing their opinions in a setting similar 
to what we are talking about.
    Dr. Grifo, one of the things you had talked about was an 
increased need for whistleblower protections and also insuring 
that scientists have a constitutionally protected right of free 
speech. What, if anything, do we need to be doing to educate 
scientists to make sure that they understand the constitutional 
basis for their free speech protections and arm them with the 
knowledge so they can be more forceful advocates to speak out 
and have the courage to do what is necessary to make sure that 
we become aware of these concerns?
    Ms. Grifo. I think one of the key things that we need to do 
is to affirmatively educate. We cannot assume that in fact 
these scientists know what these things mean. In our 
experiences, our conversations with scientists, anecdotally as 
well as in the essays and the other ways that we receive 
communications have told us over and over that the line is gray 
to them, and so because of that grayness, they are taking giant 
steps backward from what they are actually able to do.
    What we are asking for very simply is that these things 
come out, that we have clear policies. We have a model media 
policy that is appendixed to the report which clearly lays out 
yes, there are roles for public affairs officers. Coordination 
is important. We are not saying that you don't have to play by 
some rules. But what we are saying very loudly, very clearly I 
hope, is that you don't give up your constitutional rights when 
you become a Federal scientist, that in fact there are 
protections and statutes that need to be communicated and 
enforced, and the scientists need to know where that line is so 
that they can be at that line and not self-censoring themselves 
away from it.
    Mr. Piltz. If I could add just one other quick point, the 
last four pages of my written testimony has memoranda prepared 
by the legal director at the Government Accountability Project 
on how even the NASA media policy, which is an upgrade, falls 
short in terms of the Whistleblower Protection Act protections, 
the Anti-Gag Statute and things that make it clear that 
scientists don't give up their freedom of speech when they 
become Federal employees. There are some specific issues and 
legislative points raised in that, that I think I would commend 
to the committee's attention.
    Mr. Waxman. Thank you very much, Mr. Braley.
    Mr. Shindell. I would say that I agree with the statement 
of the other witnesses, and I would also like to mention that 
there is a second issue here. With NASA, for example, we do 
have this new openness policy which is a great first step, but 
what we are seeing in the future is we may be able to 
communicate information but we may not have any information 
because all of the budget for Earth observations is being 
gradually shifted within NASA whose budget is staying high, but 
it is being shifted to other areas. It is being moved out of 
science and especially out of Earth science. So we are likely 5 
years to 10 years from now to have far less ability to even 
observe our own planet than we do now.
    Mr. Waxman. Thank you.
    Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman.
    In February 2006, the New York Times reported that 
political appointees in the NASA press office were in fact 
exerting strong pressure during the 2004 Presidential campaign 
to cut the flow of news releases on climate change in the 
article entitled Call for Openness at NASA Adds to Reports of 
Pressure. I would like to ask that be made part of the record 
Mr. Chairman.
    Mr. Waxman. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.075
    
    [GRAPHIC] [TIFF OMITTED] T4913.076
    
    [GRAPHIC] [TIFF OMITTED] T4913.077
    
    [GRAPHIC] [TIFF OMITTED] T4913.078
    
    [GRAPHIC] [TIFF OMITTED] T4913.079
    
    [GRAPHIC] [TIFF OMITTED] T4913.080
    
    [GRAPHIC] [TIFF OMITTED] T4913.081
    
    [GRAPHIC] [TIFF OMITTED] T4913.082
    
    [GRAPHIC] [TIFF OMITTED] T4913.083
    
    [GRAPHIC] [TIFF OMITTED] T4913.084
    
    [GRAPHIC] [TIFF OMITTED] T4913.085
    
    Mr. Welch. Thank you.
    Dr. Shindell, listening to your testimony, I can't help but 
wonder if your personal experience is related to that broader 
story. What can you tell us about your experiences with NASA in 
the run-up to the 2004 election and does the Times article 
appear consistent with your own experience?
    Mr. Shindell. Well, obviously, it is difficult to know what 
intentions were behind policies that you didn't see formulated, 
but I would certainly agree that it is consistent. All of these 
new restrictions that I was talking about on press releases and 
the imposition of minders to be present at interviews, all of 
that took place in the fall of 2004 just before the election.
    Mr. Welch. Dr. Grifo, do you have anything to add on this 
point?
    Ms. Grifo. Not to comment on the timing, but just simply to 
say that there are six categories of things that we saw and 
that we documented in the GAP portion of the report, press 
release delays, the presence of minders, preapproval for 
interviews and rerouting of interviews, overall decreased media 
contact, altering of documents.
    Perhaps also intimidating really had to do with the 
requirement that scientists prepare Q and As. They had to 
anticipate what questions were going to come up in these 
interviews and in fact you might think so what is so bad about 
that. Well, in fact, what was happening was that the 
information in those Q and As was used to actually determine 
whether or not the interviews were granted or to feed into that 
process of decisionmaking.
    Mr. Welch. Were there any resources that reported what you 
just described?
    Ms. Grifo. All of these, yes. I mean, they are. I can give 
you, you know, pages of documentation that we have. I mean we 
have the interviews. But I think also very interestingly a lot 
of this work was based on documents obtained through the 
Freedom of Information Act, and I think really interestingly is 
that in response to very broad queries about climate and 
climate change and very, very broad questions, we received 
2,000 pages of documents. The Government Accountability 
Project, I should say, received 2,000 pages of documents from 
NOAA, 9 pages from NASA and no pages from the EPA.
    Mr. Welch. One other question, later this week, the 
Intergovernmental Panel on Climate Change [IPCC] is going to 
release its latest scientific assessment about our 
understanding of climate change science. The IPCC, as you know, 
it includes hundreds of the world's finest scientists.
    In light of that, I notice that the IPCC is mentioned in 
the CEQ documents reviewed by the committee staff. In one 
document, the CEQ Chief of Staff, Mr. Cooney, informs another 
White House staffer that they will use a controversial paper to 
rebut the IPCC, and in the EPA memo, an EPA staffer notices 
this might be a problem and saying that the EPA will take 
responsibility and severe criticism from the science and 
environmental community for poorly representing the science.
    I want to ask the panelists, is the credibility of the IPCC 
in doubt? Does it make any sense for our Government to seek to 
actively undercut this body of scientists?
    Dr. Grifo, perhaps you could start.
    Ms. Grifo. Yes, I think what I would like to say about the 
IPCC is that, you know, it is one of the most extensive 
transparent, you know, examples of iterate peer review. I mean 
I think it is a document that has reviewers and review editors 
and many processes of meetings and conversations in order to 
have this process move forward. I think that what is really 
extraordinary about it is that all of the authors of each 
chapter must agree that all sides of the science have been 
fairly represented, and I think that really gets to the heart 
of the openness of the scientific exchange that it represents.
    But I think furthermore 2,500 scientific expert reviewers, 
800 contributing authors, 450 lead authors from 130 countries, 
6 years of work. I think it is an amazing piece of work and 
will be received in that way.
    Just if I might add one other note. I want to say that 
there is more information. I mean there, we are continuing and 
the Government Accountability Project is continuing to work on 
this and on the documentation, and there is to be another 
report in about a month's time.
    Mr. Welch. Thank you.
    Briefly, yes.
    Mr. Piltz. Yes, I would say that when the science community 
comes together and produces these comprehensive assessments and 
they do have synthesis and policymaker summaries that are 
readily understandable, that this is what those of us who are 
not technical experts should use, basically. This is the well 
vetted assessment. Even after we have lifted the heavy hand of 
censorship, there is still the matter of taking these findings, 
learning them, adopting them, using them, embracing them and 
translating them into the appropriate policy responses.
    Mr. Welch. Thank you.
    Mr. Waxman. Thank you, Mr. Welch.
    Dr. Shindell, did you want to add anything to the question 
on the IPCC?
    Mr. Shindell. I would agree that this is the most 
authoritative document we have, and I would say that it does 
not exclude anybody that wants to participate. The paper that 
you referred to that supposedly would undermine it, those 
authors are free to join in the process as well to offer their 
comments and criticism, and their documents were taken into 
account with everybody else. All of the available research is 
evaluated, and so this is really a wonderful thing for 
policymakers to have everybody sit together and look and get 
the best evidence.
    The only drawback that I can see with this process is that 
it takes so long that by the time it comes out, some things can 
be out of date. What we have seen, for example, is that the 
melting of Greenland has been accelerating so incredibly 
rapidly, that the IPCC report that will come out next week will 
already be out of date in predicting likely sea level rise 
which will probably be much worse than is projected in the IPCC 
report.
    Mr. Waxman. Thank you, Mr. Welch.
    Mr. Yarmuth, do you wish a second round?
    Mr. Yarmuth. Thank you, Mr. Chairman.
    We have heard some very disturbing testimony today about 
political interference in the area of climate science, but the 
politicization of science isn't limited under the Bush 
administration to climate change. We have heard all sorts of 
evidence regarding endangered species and food and drug safety 
as well.
    Dr. Grifo, the Union of Concerned Scientists has surveyed 
other scientists in the past. You have a February 2005 survey 
of fish and wildlife scientists that included hundreds of 
biologists, ecologists and botanists. When you asked those 
scientists, was there evidence that they felt that had been 
directed for non-scientific reasons to refrain from making 
scientific findings that would protect endangered species?
    Ms. Grifo. Yes, sir, and I would say in that survey, 
actually the return rate was almost 30 percent, so it was a 
higher rate if that matters, but 44 percent of the endangered 
species scientists reported being directed for non-scientific 
reasons to refrain from findings protective of species.
    Mr. Yarmuth. Were scientific conclusions reversed or 
withdrawn because of the business interests in any instances?
    Ms. Grifo. Well, what we saw was that 70 percent of the 
scientists reported or knew of cases where political appointees 
had injected themselves into those ecological services 
determinations.
    Mr. Yarmuth. Based on your survey, it is clear that there 
was political interference and that it was widespread when it 
comes to science surrounding endangered species. How did this 
affect the outcome of policymakers and decisionmakers? Was 
there any evidence based on your survey that decisionmakers 
made decisions differently based on this suppressed science, if 
you will?
    Ms. Grifo. I think there are a couple of aspects to that 
question. I mean one is that self-censorship that we keep 
returning to. I mean I think when I go to scientific meetings 
such as my discipline, and fish and wildlife scientists come up 
to me, then express very clearly their experiences and their 
hesitation to bring forward this kind of information.
    I think in addition to that, I mean obviously there are 
things in the survey, but overall I mean what we have seen is a 
very large drop in the number of species that end up being 
listed. Whether or not you agree or disagree with that, the 
fact is that the science is not coming out. Again, there are 
problems with being able to publish results in peer review 
literature. There are problems with these basic scientific 
freedoms amongst the scientists in fish and wildlife. Again, 
these species are important for various reasons, and they have 
consequences for the American people.
    Mr. Yarmuth. Mr. Chairman, this hearing is appropriately 
focused on how the Bush administration officials have 
repeatedly tried to muzzle Government climate scientists and 
distort their findings. We need to remember that this is part 
of a larger pattern of politics trumping science throughout the 
Bush administration. I commend you once again for holding these 
hearings.
    Mr. Waxman. Thank you very much, Mr. Yarmuth.
    I want to thank each of the witnesses for your presentation 
today. You are very distinguished scientists with a great deal 
of integrity.
    Policymakers must have good science, unfiltered, unaltered 
scientific information especially when taxpayers' dollars are 
being used to pursue that information. Even, of course, if it 
is coming from the private sector, if information is being sent 
to us, it ought to be the information that the scientists have 
agreed upon.
    I think this hearing today will further our ability to deal 
with the issue of climate change, and of course the big issue 
before us is to get the administration to move from a 
confrontation to cooperation. We have been trying on a 
bipartisan basis for 6 months to get the information from the 
Council on Environmental Quality. I expect to get that 
information and any other information that is pertinent to the 
representatives of the American people.
    That concludes our hearing, and we stand adjourned.
    [Whereupon, at 1:47 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
